United States Department of Agriculture
Office of Inspector General




U.S. Department of Agriculture, Office of
the Chief Information Officer, Fiscal Year
2011 Federal Information Security
Management Act




                                          Audit Report 50501-0002-12
                                          November 2011
                                  U.S. Department of Agriculture
                                   Office of Inspector General
                                     Washington, D.C. 20250




DATE:          November 15, 2011

The Honorable Jacob Lew
Director
Office of Management and Budget
Eisenhower Executive Office Building
17th Street Pennsylvania Avenue NW
Washington, D.C. 20503

SUBJECT:       U.S. Department of Agriculture, Office of the Chief Information Officer,
               Fiscal Year 2011 Federal Information Security Management Act Report
               (Audit Report 50501-0002-12)

This report presents the results of our audits of the Department of Agriculture’s (USDA) efforts
to improve the management and security of its information technology (IT) resources. USDA
and its agencies have taken actions to improve the security over their IT resources; however,
additional actions are still needed to establish an effective security program.

Sincerely,




Phyllis K. Fong
Inspector General
Table of Contents

Executive Summary .................................................................................................1
Recommendation Summary....................................................................................8
Background & Objectives .....................................................................................10
Background.............................................................................................................10
Objectives ................................................................................................................11
Scope and Methodology.........................................................................................12
Abbreviations .........................................................................................................14
Exhibit A: Office of Management and Budget (OMB)/Department of
Homeland Security (DHS) Reporting Requirements and U. S. Department of
Agriculture (USDA) Office of Inspector General (OIG) Position .....................16
Exhibit B: Sampling Methodology and Projections: Audit Number 50501-
0002-12 FISMA FY2011 ........................................................................................55
U. S. Department of Agriculture, Office of the Chief Information
Officer, Fiscal Year 2011 Federal Information Security Management
Act (FISMA) (Audit Report 50501-0002-12)

Executive Summary

The Department of Agriculture (USDA) has made improvements in its information technology
(IT) security over the last decade, but many longstanding weaknesses remain. In our Federal
Information Security Management Act (FISMA) audits for fiscal years (FY) 2009 and 2010,
Office of Inspector General (OIG) made 33 recommendations for improving the overall security
of USDA’s systems. By the end of FY 2011, the Department had adequately remediated and
closed only 6 recommendations, leaving 27 to be addressed. OIG has reported on many of these
remaining recommendations since 2001 when we first detailed material weaknesses in the design
and effectiveness of USDA’s overall IT security program.

USDA is a large, complex organization that includes 33 separate agencies and staff offices, most
with their own IT infrastructure. In 2009, in order to mitigate continuing material weaknesses,
we reported that the Department should concentrate its efforts on a limited number of priorities
instead of attempting to achieve numerous goals simultaneously in short timeframes. We
recommended that USDA and its agencies work together to define and accomplish one or two
critical objectives before proceeding to the next set of priorities. During FY 2011, we observed
increased evidence of coordination, but the Department was not making measurable progress in
approaching this problem collaboratively. For example, during FYs 2010 and 2011, the Office
of the Chief Information Officer (OCIO) received increased budgetary authority to enhance
USDA’s IT security. The Department funded 14 separate projects with none of these projects
being fully implemented during FY 2011; instead, funding was cut and nearly all of the projects
were significantly scaled back, pushing implementation dates further into the future.1 USDA
needs to undertake a manageable number of its highest priority projects and it needs to show
measureable progress towards the milestones for each active project. USDA’s inability to
complete projects in a timely manner continues to hinder its progress towards improving its
security posture.

We acknowledge, though, that USDA has made progress through FY 2011 in several key areas;
including system security documentation. The Department improved the overall quality of this
documentation by issuing detailed guidance, strengthening its quality review process for
reviewing that documentation, and ensuring more consistent formatting and recording when it
updates that guidance. USDA also finished deploying a suite of network monitoring and
detection tools, which should further enhance the security of its networks. The suite is an
integrated security solution that provides the foundation for enterprise-wide security monitoring,



1
 We based this project count on information provided by the OCIO as part of a document request pertaining to
audit: U.S. Department of Agriculture (USDA) Audit of the Chief Information Officer’s FY 2010 Appropriations
(Audit 88401-0001-12).


                                                                       AUDIT REPORT 50501-0002-12              1
detection, and protection. Once USDA deploys adequate resources to properly configure and
completely monitor these tools, the Department’s security posture should greatly improve.

In addition, USDA has made progress in improving its identity and access management program
by developing a system that, once completed, will integrate human resource systems, logical
access security, and physical access security.2 Currently, the system is integrated3 with 425 of
467 Department web applications—further integration is in development.4 The incident response
and reporting documentation and tracking process also improved between our FY 2010 and
FY 2011 FISMA audits. The Department decreased its error rate from 100 percent in FY 2010
to 44 percent in FY 2011 through increased adherence to documented procedures. This
improvement is especially remarkable because OCIO personnel stated the incident response and
reporting division’s staff decreased from 13 to 6 full-time employees due to a reduced FY 2011
budget.

This report constitutes OIG’s independent evaluation of the Department’s IT security program
and practices, as required by FISMA. OIG’s review is based on the questions provided by the
Office of Management and Budget (OMB)/Department of Homeland Security (DHS) for the
FY 2011 FISMA review. These questions are designed to assess the status of the Department’s
security posture during FY 2011. For the FISMA review, OMB/DHS’s framework requires OIG
to audit processes, policies, and procedures that had already been implemented and documented,
and were being monitored during FY 2011. While USDA’s planned activities may improve its
security posture in the future, we could not evaluate these initiatives as part of our FY 2011
FISMA review because they were not fully operational during the year.

The following summarizes the key matters discussed in exhibit A of this report, which contains
OIG’s responses to OMB/DHS’ questions. These questions were defined in OMB Memorandum
M-11-33, FY 2011 Reporting Instructions for the Federal Information Security Management Act
and Agency Privacy Management (September 14, 2011) and DHS Federal Information Security
Memorandum 11-02, FY 2011 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management (August 24, 2011). The universe of systems
and agencies reviewed varied during each audit or review reflected in this report.




2
  NIST SP 800-14, Generally Accepted Principles and Practices for Securing Information Technology Systems
(September 1996) states logical access is the ability to explicitly enable or restrict access. Logical access controls
can prescribe not only who or what is to have access to a specific system resource but also the type of access that is
permitted.
3
  Integration is the merging of web applications with functions of the identity, credential, and access management
system such as using a single access credential. This integration allows centralized account access rights and
privileges to be monitored and tracked.
4
  There can be multiple applications per system. Even though there are only 257 USDA systems, the number of
applications running on those systems is greater.

2     AUDIT REPORT 50501-0002-12
To address the FISMA metrics, OIG reviewed systems and agencies, OIG independent
contractor audits, annual agency self-assessments, and various OIG audits throughout the year.5
Since the scope of each review and audit differed, we could not use every review or audit to
address each question.

Agency officials are responsible for ensuring all systems meet Federal and Departmental
requirements and documenting agency compliance in the Cyber Security Assessment and
Management (CSAM) system.6 OCIO is responsible for ensuring that agencies are compliant
with Federal and Departmental guidance and are reporting aggregate results during the annual
FISMA reporting cycle. The Risk Management Framework (RMF) is a new publication by the
National Institute of Standards and Technology (NIST). The publication promulgates a common
framework which is intended to improve information security, strengthen risk management, and
encourage reciprocity between Federal agencies.7 The publication transforms the traditional
Certification and Accreditation (C&A) process into a six-step RMF process.8 Although the
process has changed, we continue to find:

    ·    USDA does not have a RMF policy or fully developed procedures. According to the
         Department, this occurred because the governance team which was overseeing RMF was
         disbanded due to budget cuts. As a result, USDA cannot ensure that it has a
         consistent and effective approach to risk management that applies to all risk management
         processes and procedures. However, in August 2011, USDA did issue a guide that
         addresses parts of the six-step RMF process. The guide also clarifies the steps necessary
         to complete the C&A process. Agencies are required to submit their system C&A
         packages and all supporting documents to the Department for an indepth review (i.e., a
         concurrency review). During this review, USDA ensures that the documentation
         prepared to support system accreditation is complete, accurate, reliable, and meets NIST
         and other mandated standards.9

5
  Agency annual self-assessments derive from OMB Circular A-123, which defines Management’s Responsibilities
for Internal Control in Federal agencies (December 21, 2004). The circular requires agency’s management to
annually provide assurances on internal control in Performance and Accountability Reports. During annual
assessments, agencies take measures to develop, implement, assess, and report on internal controls, and take action
on needed improvements.
6
  CSAM is a comprehensive system developed by the Department of Justice, which can facilitate achieving FISMA
compliance. CSAM provides a vehicle for the Department, agencies, system owners, and security staff to:
(1) manage system inventory, interfaces, and related system security threats and risks; (2) enter system security data
into a single repository to ensure all system security factors are adequately addressed; (3) prepare annual system
security documents, such as security plans, risk analyses, and internal security control assessments; and (4) generate
custom and predefined system security status reports to effectively and efficiently monitor each agency’s security
posture and FISMA compliance. This includes agency-owned systems as well as those operated by contractors on
the agency’s behalf.
7
  NIST Special Publication (SP) 800-37 Revision 1, Guide for Applying the Risk Management Framework to
Federal Information Systems (February 2010), was developed by the Joint Task Force Transformation Initiative
Working Group.
8
  C&A is a process mandated by OMB Circular A-130, Appendix III, Security of Federal Automated Information
Resources (November 28, 2000). The process requires that IT system controls be documented and tested by
technical personnel and that the system be given formal authority to operate by an agency official.
9
  Security accreditation is the official management decision given by a senior agency official to authorize operation
of an information system and to explicitly accept the risk to agency operations, agency assets, or individuals based
on the implementation of agreed-upon security controls.

                                                                           AUDIT REPORT 50501-0002-12                3
     ·    Overall, we found that the C&A process improved. USDA completed its indepth
          document reviews and appropriately returned C&As to agencies that did not meet NIST
          requirements. However, we did find that improvements are still needed. Specifically, the
          following C&A documentation did not meet NIST requirements: (1) systems were not
          properly categorized; (2) risk assessments did not adequately substantiate testing;
          (3) system security plan (SSP) controls were not implemented properly and did not
          sufficiently address each control; and (4) security assessment reports did not provide
          evidence to show that controls had been tested. As a result, USDA cannot be assured that
          all system controls had been documented and tested, and that systems were operating at
          an acceptable level of risk.

     ·    Additionally, we found 15 of 55 systems were not recertified as required in FY 2011.10
          This occurred because agencies had not submitted documents for recertification. As a
          result, these systems are operational but without proper certification, which leaves the
          agencies and the Department vulnerable because the systems have not been through
          proper testing.

USDA has established and is maintaining a security configuration management program, but
further improvements are needed. Specifically, we found that the Department has established
adequate policy and issued a memo stating that USDA will use the Federal standard baseline
configurations for operating systems. However, agencies have not completely scanned their
networks, corrected critical and high-risk vulnerabilities, or followed established baselines when
configuring servers. For example, our review found that over 45 percent of the Department’s
Windows 2003 server configuration settings did not comply with current Federal guidelines.11
We also found that one agency was not scanning over 1,600 machines on a monthly basis as
required by Departmental guidance.12 This occurred because the network and security groups
were not communicating.13

Although USDA’s incident handling has improved, we continue to find that the Department is
not consistently following its own policy and procedures in regard to incident response and
reporting. Our statistical review determined that 29 of 66 incidents that occurred during the year
were not handled in accordance with Departmental procedures.14 Additionally, our review


10
   Security certification is a comprehensive assessment of the management, operational, and technical security
controls in an information system, which are made in support of security accreditation to determine the extent to
which the controls are implemented correctly, operating as intended, and producing the desired outcome with
respect to meeting the security requirements for the system. Recertification is required periodically or as part of a
continuous monitoring program.
11
   Defense Information Systems Agency, Windows 2003 Security Technical Implementation Guide Overview
(August 27, 2010). The NIST site incorporates checklists from various Federal entities including the Department of
Defense.
12
   USDA Departmental Manual (DM) 3530-001, USDA Vulnerability Scan Procedures (July 20, 2005).
13
   NIST SP 800-53, Revision 3, Recommended Security Controls for Federal Information Systems and
Organizations (August 2009).
14
   Agriculture Security Operations Center (ASOC) Computer Incident Response Team (CIRT), Standard Operating
Procedures for Reporting Security and Personally Identifiable Information Incidents, SOP-ASOC-001
(June 9, 2009).

4        AUDIT REPORT 50501-0002-12
determined that the Department has insufficient incident detection and monitoring coverage.
From September 2010 through April 2011, USDA installed an incident detection toolkit, which
alerts the Department to potential cyber-related incidents. During FY 2011, USDA had three
employees who were responsible for monitoring the daily data, calibrating security tools, and
analyzing incidents. The employees were able to analyze and process approximately
15 incidents per week. However, the Department stated that, with the appropriate resources, it
would have been able to process up to 150 incidents per week. NIST SP 800-53 requires the
organization to report suspected security incidents and related information to appropriate
organizational authorities. USDA has assigned this responsibility to the Agriculture Security
Operations Center (ASOC). According to the Department, it was aware of the up to 150 weekly
security-related incidents and that it did not have sufficient resources to investigate or report the
majority of them.

Department policy met all NIST SP 800-53 requirements for annual security awareness
training.15 However, USDA lacks policy and procedures to govern specialized security training
for personnel with significant information security responsibilities. In addition, we found that
not all personnel received the required annual security awareness training and specialized
security awareness training.16 Specifically, of the three agencies reviewed, we did not find
evidence that 1,383 of 10,904 users with login privileges had completed their annual security
awareness training. We also found that 4 of 33 users identified as requiring specialized security
training did not have documented proof that they received the training during FY 2011. As a
result, USDA IT systems bear an increased risk of being compromised because users are allowed
access to Department and agency information systems without the required training.

USDA did not have effective policy and procedures for reporting IT security deficiencies in
CSAM. We found that plans of action and milestones (POA&Ms) did not include all known
security weaknesses.17 For example, the Department requires an agency to create a POA&M
when an identified vulnerability cannot be remediated within 30 days. 18 However, our testing at
3 agencies showed 1,224 vulnerabilities that were over 30 days old without POA&Ms. In
addition, our review of POA&Ms within CSAM found that agencies were not tracking the source
(e.g., program review, Inspector General (IG) audit, etc.) of the security weaknesses as required
by OMB.19 Specifically, we found that 721 POA&Ms (34.4 percent of the total POA&Ms in


15
   DM 3545-001, Computer Security Training and Awareness (February 17, 2005).
16
   NIST SP 800-53 requires organizations to provide basic security awareness training to all users. Additionally, it
requires organizations to provide role-based specialized security training related to specific roles and responsibilities
for: information system managers, system and network administrators, personnel performing independent
verification and validation activities, security control assessors, and other personnel having access to system-level
software. Organizations are to determine the appropriate content of security training and the specific requirements
of the organization and the information systems to which personnel have authorized access.
17
   A POA&M is a tool that identifies tasks needing to be accomplished to assist agencies in identifying, assessing,
prioritizing, and monitoring the progress of corrective efforts for security weaknesses found in programs and
systems. It details resources required to accomplish the elements of the plan, milestones for meeting the task, and
scheduled completion dates for the milestones. The goal of a POA&M should be to reduce the risk of the weakness
identified.
18
   Plan of Action and Milestones Management Standard Operating Procedures, CPO-SOP 002 (June 29, 2011).
19
   OMB M-04-25, FY 2004 Reporting Instructions for the Federal Information Security Management
Act (August 23, 2004).

                                                                            AUDIT REPORT 50501-0002-12                 5
FY 2011) did not track the source of security weaknesses. We also found 674 of 1,774
POA&Ms had an associated cost of zero dollars to remediate the identified weakness, instead of
the necessary amount to remediate the weakness as required by OMB M-04-25 guidance.
Additionally, we noted that the Department is not tracking and reviewing POA&Ms as required
by the Department’s standard operating procedures (SOP). Finally, we were unable to verify
that the Department completed the required reviews of closed POA&Ms in FY 2011 because
there was inaccurate or inconsistent evidence supporting the reviews.

USDA’s remote access program needs significant improvements. Our review identified policy
that did not meet NIST requirements.20 The Department stated that procedures were the
responsibility of the agencies, but we found that five of seven agencies reviewed by independent
contractors did not consistently implement remote access procedures. In addition, we found
agencies did not follow the policy that did exist. For example, USDA requires multi-factor
authentication for all remote access (i.e., two means of identification).21 However, we found that
8 of 10 agencies (reviewed by OIG, independent contractors, and agency annual self-
assessments) did not have multi-factor authentication properly implemented for remote access.
In addition, we found that agencies were not adequately encrypting laptop devices. For example,
one agency had failed to encrypt 341 laptop devices because procedures were inadequate to
ensure this was done for newly deployed hardware.

USDA developed an account and identity management policy, but it was not sufficiently detailed
or consistently implemented.22 In particular, the Department’s policy did not fully meet
NIST SP 800-53 requirements; the Department procedures for managing accounts were not fully
developed; and agencies had not implemented account management with the proper security
settings.23 The policy is in draft and the Department will begin developing the procedures next.
As a result of the inadequate policy and procedures, agencies failed to consistently implement
security settings. For example, we found former employees with active accounts, users with
excessively elevated account privileges, and administrator accounts that did not follow the
principle of granting the fewest privileges necessary for users to perform their work. Agencies
have documented procedures, but are failing to follow them.

USDA has established an enterprise-wide continuous monitoring program that assesses the
security state of information systems, but the Department needs to make significant
improvements. Specifically, we found that USDA had not fully developed a strategy or plan for
enterprise-wide continuous monitoring, and that ongoing assessments of security controls had
not been performed. The Department’s continuous monitoring policy is currently in draft and is
expected to be released in December 2011. In addition, we found 48 of 257 systems where

20
   NIST SP 800-46, Revision 1, Guide to Enterprise Telework and Remote Access Security (June 2009).
21
   USDA Departmental Regulation (DR) 3505-003, Access Control Policy (August 11, 2009). Multi-factor
authentication is a security process in which the user provides two means of identification, one of which is typically
a physical token, such as a card, and the other is typically something memorized, such as a security code. In this
context, the two factors involved are sometimes spoken of as “‘something you have’ and ‘something you know.’”
22
   DR 3505-003, Access Control Policy (August 11, 2009); DR 3180-001, Information Technology Network
Standards (September 30, 2008); and DM 3535-001, USDA's C2 Level of Trust (February 2005).
23
   USDA Identity, Credential and Access Management (ICAM) Identity Lifecycle Management Handbook
(June 2011).


6     AUDIT REPORT 50501-0002-12
ongoing assessments of selected security controls had not been performed in FY 2011 as
required by NIST SP 800-53. The Department stated that it lacks the resources to implement
robust, enterprise-wide continuous monitoring capabilities. As a result, the Department cannot
effectively detect compliance and determine if implemented security controls within an
information system are effective.

USDA has established and is maintaining an enterprise-wide business continuity/disaster
recovery program, but it needs to make significant improvements. Specifically, the Department's
contingency policy and procedures did not meet NIST 800-53 requirements because they have
not been updated to include the new elements.24 We found the template provided by the
Department to the agencies for contingency planning purposes did not contain all of NIST’s
required elements.25 We also found that contingency plans were incomplete. Based on our
sample results for 3 agencies, we estimate that 22 systems (about 59 percent) had missing or
incomplete contingency plans.26 In addition, we identified 33 of 257 systems for which USDA
system contingency plans were not tested during FY 2011.

USDA did not have policy and procedures to oversee systems that contractors or other entities
operated on agencies’ behalf. During our FY 2009 FISMA audit, we identified systems that
should have been designated as contractor systems. In response, the Department stated that it
would review the systems and change the designation to contractor systems if appropriate. Due
to the missing policy and procedures, we found seven systems were still not included in the
inventory of contractor systems. FISMA requires USDA to maintain an inventory of its
information systems that, among other information, identifies interfaces between each system
and all other systems or networks, including those not operated by, or under the control of, the
agency.27 During our review, we also found 18 of 18 systems had incorrectly reported their
interconnections to other systems. Additionally, OIG found that USDA’s new cloud email
service was not included in the official Department inventory and was not designated as a
contractor system.28

Our testing of USDA’s capital planning process determined that the Department has established
and maintains a security capital planning and investment program for information security. 29
However, one exception was identified in the Departmental capital planning policy.30
Specifically, the policy lacked a description of what constitutes a “major IT investment”
according to the capital planning process.

24
   DM 3570-001, Disaster Recovery and Business Resumption Plans (February 17, 2005).
25
   USDA Contingency Plan template (March 2011).
26
   We are 95 percent confident that between 15 (40 percent) and 29 systems (78 percent) had missing or incomplete
contingency plans. Additional sample analysis information is presented in exhibit B.
27
   FISMA of 2002, Title III Information Security (December 17, 2002).
28
   Cloud computing is a model for enabling network access to a shared pool of computing resources that can be
rapidly provisioned and released with minimal management effort or service provider interaction.
NIST SP 800-145, The NIST Definition of Cloud Computing (September 2011).
29
   Capital planning and investment control (CPIC) is a systematic approach to selecting, managing, and evaluating
information technology investments. CPIC is mandated by the Clinger Cohen Act of 1996 and requires Federal
agencies to focus more on the results achieved through IT investments while streamlining the Federal IT
procurement process (www.ocio.usda.gov/cpic/index.html).
30
   DM 3560-000, CPIC for Security Table of Content (February 17, 2005) and DM 3560-001, Security Requirements
for CPIC (February 17, 2005).

                                                                       AUDIT REPORT 50501-0002-12              7
The below recommendations are new for FY 2011. Because 27 recommendations from FY 2009
and FY 2010 remain without final closure (or were closed improperly), we have not made any
repeat recommendations.31 However, OIG noted that 25 of those recommendations have
exceeded their estimated completion date. If the plans initiated to close out the FY 2009 and
2010 recommendations are no longer achievable due to budget cuts or other reasons, then OCIO
needs to update those closure plans and request a change in management decision per
Departmental guidance.32

Recommendation Summary
1. Develop and implement an effective plan to mitigate the IT material weaknesses within the
Department in cooperation with the agencies. Ensure the plan includes prioritized tasks, defined
goals, and realistic timeframes. The Department and its agencies, working in cooperation,
should define and accomplish one or two critical objectives prior to proceeding on to the next set
of priorities.

2. Develop a Risk Management policy and associated procedures that fully comply with NIST.

3. Develop monitoring procedures to verify that monthly vulnerability scans are completed as
required by Departmental guidance.

4. Develop monitoring procedures to verify that all Department and agency network devices are
configured in accordance with NIST SP 800-53.

5. Update the current incident response and reporting procedures to reflect current practices.
Additionally, the Department needs to allocate appropriate resources to the ASOC allowing it to
operate effectively in mitigating cyber related incidents.

6. Deploy adequate resources to monitor and configure new security tools and then adequately
report and close the related incidents.

7. Develop monitoring procedures to appropriately report the status of USDA employees being
trained to meet their information security awareness needs.

8. Actively manage the POA&M process, which includes tracking and reviewing POA&Ms in
accordance with its recently issued SOP.




31
   We found that two recommendations were closed without final action truly being achieved. For example, the
Department closed out the prior recommendation to prioritize and accomplish one or two tasks before moving
forward with another task. However, as noted in this report, our review found that OCIO is still trying to
accomplish many tasks simultaneously.
32
   USDA Departmental Regulation (DR) 1720-001, Audit Follow-up and Management Decision
(November 2, 2011).


8     AUDIT REPORT 50501-0002-12
9. Update the contingency plan template to adequately address all NIST SP 800-34
requirements.

10. Update USDA’s Capital Planning policy to incorporate a definition of a “major IT
investment” so that agencies have a documented description to use.




                                                           AUDIT REPORT 50501-0002-12   9
Background & Objectives

Background
Improving the overall management and security of IT resources needs to be a top priority for
USDA. Technology enhances users’ ability to share information instantaneously among
computers and networks, but it also makes organizations’ networks and IT resources vulnerable
to malicious activity and exploitation by internal and external sources. Insiders with malicious
intent, recreational and institutional hackers, and attacks by foreign intelligence organizations are
a few of the threats to the Department’s critical systems and data.

On December 17, 2002, the President signed into law the e-Government Act
(Public Law 107-347), which includes Title III, FISMA. FISMA permanently reauthorized the
framework established by the Government Information Security Reform Act (GISRA) of 2000,
which expired in November 2002. FISMA continued the annual review and reporting
requirements introduced in GISRA, and also included new provisions that further strengthened
the Federal Government’s data and information systems security, such as requiring the
development of minimum control standards for agencies’ systems. NIST was tasked to work
with agencies in developing those standards as part of its statutory role in providing technical
guidance to Federal agencies.

FISMA supplements the information security requirements established in the Computer Security
Act of 1987, the Paperwork Reduction Act of 1995, and the Clinger-Cohen Act of 1996. FISMA
consolidated these separate requirements and guidance into an overall framework for managing
information security. It established new annual reviews, independent evaluations, and reporting
requirements to ensure agencies implemented FISMA. It also established how OMB and
Congress would oversee IT security.

FISMA assigned specific responsibilities to OMB, agency heads, CIO, and IG. In OMB M-10-
28, OMB transferred portions of those responsibilities to DHS. The memorandum clarified that
OMB is responsible for establishing and overseeing policies, standards, and guidelines for
information security. It further stated that DHS exercises primary responsibility within the
executive branch for the operational aspects of Federal agency cybersecurity with respect to the
Federal information systems that fall within FISMA. DHS was given broad implementation
responsibilities to include overseeing agencies’ compliance with FISMA and developing
analyses for OMB to assist in the development of its annual FISMA report.

Each agency must establish a risk-based information security program that ensures information
security is practiced throughout the lifecycle of each agency’s system. Specifically, the agency’s
CIO is required to oversee the program, which must include:

     ·   Periodic risk assessments that consider internal and external threats to the integrity,
         confidentiality, and availability of systems and data supporting critical operations and
         assets;



10       AUDIT REPORT 50501-0002-12
   ·   Development and implementation of risk-based, cost-effective policies and procedures to
       provide security protections for the agency’s information;
   ·   Training that covers security responsibilities for information security personnel and
       security awareness for agency personnel;
   ·   Periodic management testing and evaluation of the effectiveness of security policies,
       procedures, controls, and techniques;
   ·   Processes for identifying and remediating significant security deficiencies;
   ·   Procedures for detecting, reporting, and responding to security incidents; and
   ·   Annual program reviews by agency officials.

In addition to the responsibilities listed above, FISMA requires each agency to have an annual
independent evaluation of its information security program and practices, including control
testing and compliance assessment. The evaluations are to be performed by the agency’s IG or
an independent evaluator, and the results of these evaluations are to be reported to OMB.

Objectives
The objective of this audit was to evaluate the status of USDA’s overall IT security program by
evaluating the:

   ·   Effectiveness of the Department’s oversight of agencies’ IT security programs, and
       compliance with FISMA;
   ·   Agencies’ systems of internal controls over IT assets;
   ·   Department’s progress in establishing a Departmentwide security program, which
       includes effective certifications and accreditations;
   ·   Agencies’ and the Department’s POA&M consolidation and reporting process; and
   ·   Effectiveness of controls over configuration management, incident response, IT training,
       remote access management, identity and access management, continuous monitoring,
       contingency planning, contractor systems, and capital planning.




                                                           AUDIT REPORT 50501-0002-12        11
Scope and Methodology
The scope of our review was Departmentwide and included agency IT audit work completed
during FY 2011. We conducted this audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Fieldwork for this audit was performed remotely at USDA locations throughout the continental
United States from May 2011 through October 2011. In addition, this report incorporates audits
done throughout the year by OIG. Testing was conducted at offices in the Washington, D.C.
area, and Kansas City, Missouri. Additionally, we included the results of IT control testing and
compliance with laws and regulations performed by contract auditors at seven additional USDA
agencies. In total, our FY 2011 audit work covered 15 agencies and staff offices:

     ·   Agricultural Marketing Service (AMS),
     ·   Animal and Plant Health Inspection Service (APHIS),
     ·   Departmental Management (DM),
     ·   Food and Nutrition Service (FNS),
     ·   Forest Service (FS),
     ·   Farm Service Agency (FSA),
     ·   Food Safety and Inspection Service (FSIS),
     ·   National Agricultural Statistics Service (NASS),
     ·   National Finance Center (NFC),
     ·   National Institute of Food and Agriculture (NIFA),
     ·   National Information Technology Center (NITC),
     ·   Natural Resources Conservation Service (NRCS),
     ·   Office of the Chief Information Officer (OCIO),
     ·   Rural Development (RD), and
     ·   Risk Management Agency (RMA).

These agencies and staff offices operate approximately 200 of the Department’s estimated
257 general support and major application systems.

To accomplish our audit objectives, we performed the following procedures:

     ·   Consolidated the results and issues from our prior IT security audit work and the work
         contractors performed on our behalf. Contractor audit work consisted primarily of audit
         procedures found in the U.S. Government Accountability Office’s (GAO) Financial
         Information System Control Audit Manual;
     ·   Evaluated the Department’s progress in implementing recommendations to correct
         material weaknesses identified in prior OIG and GAO audit reports;



12       AUDIT REPORT 50501-0002-12
   ·   Gathered the necessary information to address the specific reporting requirements
       outlined in OMB M-11-33, FY 2011 Reporting Instructions for the Federal Information
       Security Management Act and Agency Privacy Management (September 14, 2011);
   ·   Performed detailed testing specific to FISMA requirements at selected agencies, as
       detailed in this report; and
   ·   Performed statistical sampling on testing where appropriate. Additional sample analysis
       information is presented in exhibit B.

Testing results were compared against NIST controls, OMB/DHS guidance, e-Government Act
requirements, and Departmental policies and procedures for compliance.




                                                          AUDIT REPORT 50501-0002-12        13
Abbreviations
AMS............................ Agricultural Marketing Service
APHIS ......................... Animal and Plant Health Inspection Service
ASOC.......................... Agriculture Security Operations Center
BIA.............................. Business Impact Analysis
C&A............................ Certification and Accreditation
CIRT ........................... Computer Incident Response Team
CSAM ......................... Cyber Security Assessment and Management
CIO.............................. Chief Information Officer
CISO ........................... Chief Information Security Office
CPIC............................ Capital Planning & Investment Control
DHS............................. Department of Homeland Security
DM .............................. Departmental Management or USDA Department Manual
DR ............................... USDA Departmental Regulation
DoD............................. Department of Defense
FDCC .......................... Federal Desktop Core Configuration
FIPS............................. Federal Information Processing Standard
FISMA ........................ Federal Information Security Management Act of 2002
FNS ............................. Food and Nutrition Service
FS ................................ Forest Service
FSA ............................. Farm Service Agency
FSIS............................. Food Safety and Inspection Service
FY ............................... Fiscal Year
GAO............................ Government Accountability Office
GISRA......................... Government Information Security Reform Act
HSPD-12 ..................... Homeland Security Presidential Directive-12
ICAM .......................... Identity, Credential and Access Management
IG ................................ Inspector General
ISA .............................. Interconnection Security Agreement
IT................................. Information Technology
MOU ........................... Memorandum of Understanding
NASS .......................... National Agricultural Statistics Service

14       AUDIT REPORT 50501-0002-12
NCSD.......................... National Cyber Security Division
NFC............................. National Finance Center
NIFA ........................... National Institute of Food and Agriculture
NIST............................ National Institute of Standards and Technology
NITC ........................... National Information Technology Center
NRCS .......................... Natural Resources Conservation Service
OCIO........................... Office of the Chief Information Officer
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
PIV .............................. Personal Identify Verification
POA&M...................... Plan of Action and Milestones
RD ............................... Rural Development
RMA ........................... Risk Management Agency
RMF ............................ Risk Management Framework
SAR............................. Security Assessment Report
SOP ............................. Standard Operating Procedures
SP ................................ Special Publication
SSP.............................. System Security Plan
TT&E .......................... Test, Training, and Exercise
US-CERT.................... US-Computer Emergency Readiness Team
USDA.......................... Department of Agriculture




                                                                    AUDIT REPORT 50501-0002-12   15
Exhibit A: Office of Management and Budget (OMB)/Department
of Homeland Security (DHS) Reporting Requirements and U. S.
Department of Agriculture (USDA) Office of Inspector General
(OIG) Position
OMB/DHS’ questions are set apart by boldface in each section. OIG checks items on
OMB/DHS’ list, boldfacing and underlining the relevant text. We answer direct questions with
True or False.

The universe of systems and agencies reviewed varied during each audit or review in this report.
As part of Federal Information Security Management Act (FISMA), OIG reviewed systems and
agencies, audit work conducted for OIG by independent public accounting firm contractors,
annual agency self-assessments, and various OIG audits conducted throughout the year. 33 Since
the scope of each review and audit differed, we could not use every review or audit to answer
each question.

The audit team reviewed multiple areas of FISMA. We incorporated statistical sampling for four
FISMA areas. Each of the four areas was represented by the relevant universe associated with it.
The specific designs are summarized in exhibit B.


S1: Risk Management
Section 1: Risk Management

Check one: (1.a, 1.b, or 1.c)

1.a. The agency has established and is maintaining a risk management program that is
consistent with FISMA requirements, OMB policy, and applicable
National Institute of Standards and Technology (NIST) guidelines. Although improvement
opportunities may have been identified by OIG, the program includes the following
attributes:
       1.a(1). Documented and centrally accessible policies and procedures for risk
       management, including descriptions of the roles and responsibilities of participants
       in this process.
       1.a(2). Addresses risk from an organization perspective with the development of a
       comprehensive governance structure and organization-wide risk management
       strategy as described in NIST 800-37, Rev. 1.
       1.a(3). Addresses risk from a mission and business process perspective and is
       guided by the risk decisions at the organizational perspective, as described in

33
  Agency annual self-assessments are a result of OMB Circular A-123, Management’s Responsibility for Internal
Control (December 21, 2004) which defines management’s responsibility for internal controls in Federal agencies.
The Circular requires agencies’ management to annually provide assurances on internal control in its Performance
and Accountability Report. During the annual assessment, agencies take measures to develop, implement, assess,
and report on internal control, and to take action on needed improvements.

16      AUDIT REPORT 50501-0002-12
       NIST 800-37, Revision 1.
       1.a(4). Addresses risk from an information system perspective and is guided by the
       risk decisions at the organizational perspective and the mission and business
       perspective, as described in NIST 800-37, Rev. 1.
       1.a(5). Categorizes information systems in accordance with government policies.
       1.a(6). Selects an appropriately tailored set of baseline security controls.
       1.a(7). Implements the tailored set of baseline security controls and describes how
       the controls are employed within the information system and its environment of
       operation.
       1.a(8). Assesses the security controls using appropriate assessment procedures to
       determine the extent to which the controls are implemented correctly, operating as
       intended, and producing the desired outcome with respect to meeting the security
       requirements for the system.
       1.a(9). Authorizes information system operation based on a determination of the
       risk to organizational operations and assets, individuals, other organizations, and
       the Nation resulting from the operation of the information system and the decision
       that this risk is acceptable.
       1.a(10). Ensures information security controls are monitored on an ongoing basis,
       including assessing control effectiveness, documenting changes to the system or its
       environment of operation, conducting security impact analyses of the associated
       changes, and reporting the security state of the system to designated organizational
       officials.
       1.a(11). Information system-specific risks (tactical), mission/business-specific risks
       and organizational level (strategic) risks are communicated to appropriate levels of
       the organization.
       1.a(12). Senior officials are briefed on threat activity on a regular basis by
       appropriate personnel. (e.g., CISO).
       1.a(13). Prescribes the active involvement of information system owners and
       common control providers, chief information officers, senior information security
       officers, authorizing officials, and other roles as applicable in the ongoing
       management of information system-related security risks.
       1.a(14). Security authorization package contains system security plan, security
       assessment report, and POA&M in accordance with government policies.

1.b. The agency has established and is maintaining a risk management program.
However, the agency needs to make significant improvements as noted below.

1.c. The agency has not established a risk management program.

If 1.b. is checked above, check areas that need significant improvement:

1.b(1). Risk management policy is not fully developed. True

We found the Department had not developed a risk management policy. According to the
Department, this occurred because the governance team which was overseeing the risk
management framework (RMF) was disbanded due to budget cuts. As a result, USDA cannot


                                                         AUDIT REPORT 50501-0002-12        17
ensure that it had a consistent and effective approach to risk management that applies to all risk
management processes and procedures.

1.b(2). Risk management procedures are not fully developed, sufficiently detailed
(SP 800-37, SP 800-39, SP 800-53). True

We found that the Department did not have risk management procedures fully developed. As of
August 8, 2011, the Department had a guide that addresses parts of the six-step RMF process.
The guide also clarifies the steps necessary to complete the C&A process. Agencies are required
to submit their system C&A packages and all supporting documents to the Department for an
indepth review (i.e., a concurrency review). During this review, USDA ensures that the
documentation prepared to support system accreditation is complete, accurate, reliable, and
meets NIST and other mandated standards.34 According to the Department, the procedures were
not fully developed because the governance team which was overseeing the RMF was disbanded
due to budget cuts. As a result, the Department could not ensure that it had a consistent and
effective approach to risk management that applies to all risk management processes and
procedures.

1.b(3). Risk management procedures are not consistently implemented in accordance with
government policies (SP 800-37, SP 800-39, SP 800-53). True

We found that the Department did not fully develop risk management procedures (as stated in
1.b(2)). Because of this, we could not verify that procedures were consistently implemented in
accordance with government policies.

1.b(4). A comprehensive governance structure and agency-wide risk management strategy
has not been fully developed in accordance with government policies (SP 800-37, SP 800-39,
SP 800-53). True

We found that the Department did not have a comprehensive governance structure or a fully
developed agency-wide risk management strategy. Since the Department did not have a risk
management policy (as stated in 1.b(1)) or fully developed procedures (as stated in 1.b(2)), we
could not verify that a comprehensive governance structure and agency-wide risk management
strategy existed.

1.b(5). Risks from a mission and business process perspective are not addressed
(SP 800-37, SP 800-39, SP 800-53). True

We found the Department did not have a risk management policy that addressed the mission and
business process perspective. Since the Department did not have a risk management policy (as
stated in 1.b(1)) or fully developed procedures (as stated in 1.b(2)), we could not verify that the
risks from a mission and business process perspective were addressed.

34
  Security accreditation is the official management decision made by a senior agency official to authorize operation
of an information system and to explicitly accept the risk to agency operations, agency assets, or individuals based
on the implementation of agreed-upon security controls.


18      AUDIT REPORT 50501-0002-12
1.b(6). Information systems are not properly categorized (FIPS 199/SP 800-60). True

We generated a report from Cyber Security Assessment and Management (CSAM), which
identified the categorization level for each of the Department’s systems.35 The report included
the impact levels for confidentiality, integrity, and availability, which were categorized as high,
moderate, and low. We compared the generated report to the recommendations in
NIST SP 800-60 and found that 15 of 257 systems indicated a lower categorization than was
recommended during the C&A process without adequate justification for the reduction in
categorization level.36 Therefore, systems were not properly categorized. NIST SP 800-60
requires that any adjustments to the recommended impact levels be documented and include
justification for the adjustment. However, we found the provided justifications to be the same
for all 15 systems, though the purposes of the systems were very diverse.

1.b(7). Appropriately tailored baseline security controls are not applied to information
systems in accordance with government policies (FIPS 200/SP 800-53). True

NIST SP 800-53 recommends a set of minimum baseline security controls contingent upon the
system’s overall categorization.37 The lower the category, the fewer controls required.
Therefore, the incorrect categorization noted in 1.b(6) led to inadequate controls being
implemented for those 15 systems. NIST SP 800-60 states that an incorrect information system
impact analysis could result in the agency either overprotecting the information system (thereby
wasting valuable security resources) or under-protecting the information system (and placing
important operations and assets at risk).

1.b(8). Risk assessments are not conducted in accordance with government policies
(SP 800-30). True

The risk assessments we reviewed were not conducted in accordance with Government policies.
Specifically, our review found 10 of 10 systems did not have sufficient documentation to
substantiate the testing.38 Based on the statistical sample results, we estimate that none of the



35
   CSAM is a comprehensive system developed by the Department of Justice, which can help in achieving FISMA
compliance. CSAM provides a vehicle for the Department, agencies, system owners, and security staffs to (1)
manage their system inventory, interfaces, and related system security threats and risks; (2) enter system security
data into a single repository to ensure all system security factors are adequately addressed; (3) prepare annual system
security documents, such as security plans, risk analyses, and internal security control assessments; and (4) generate
custom and predefined system security status reports to effectively and efficiently monitor each agency’s security
posture and FISMA compliance. This includes agency-owned systems or those operated by contractors on the
agency’s behalf.
36
   NIST SP 800-60, Guide for Mapping Types of Information and Information Systems to Security Categories,
Vol. 1 (August 2008).
37
   NIST SP 800-53, Recommended Security Controls for Federal Information Systems and Organizations, Rev. 3
(August 2009).
38
   We selected a simple random sample of 25 systems for review, which would satisfy various possible
combinations of error rates, confidence levels, and tolerable error rates. We would consider stop-or-go if for a given
criterion there are zero plans with an exception after the first 15 plans are reviewed, or after the first 10 plans are
reviewed, if all plans have an exception. Additional sample analysis information is presented in exhibit B.

                                                                         AUDIT REPORT 50501-0002-12                19
55 risk assessments were conducted in accordance with Government policies.39 This occurred
because the system-generated documents that were being used did not encompass the primary
steps required by NIST SP 800-30.40 As a result, the Department could not ensure agencies were
properly managing their IT-related mission risks.

1.b(9). Security control baselines are not appropriately tailored to individual information
systems in accordance with government policies (SP 800-53). True

NIST SP 800-53 recommends a set of minimum baseline security controls based on the system’s
overall categorization. The lower the category, the fewer controls required. Therefore, the
incorrect categorization noted in 1.b(6) led to inadequate controls being implemented for those
15 systems. NIST SP 800-60 states that the value of information security categorizations is to
enable agencies to proactively implement appropriate information security controls based on the
assessed potential impact to information confidentiality, integrity, and availability.

1.b(10). The communication of information system-specific risks, mission/business-specific
risks and organizational level (strategic) risks to appropriate levels of the organization is
not in accordance with government policies. False

No exception noted. We found the Department communicated information system-specific risks,
mission/business-specific risks, and organizational level (strategic) risks to appropriate levels of
the organization in accordance with Government policies.

1.b(11). The process to assess security control effectiveness is not in accordance with
government policies (SP 800-53A). False

No exception noted. We found that the Department had issued guidance to agencies on 33 key
controls that should be tested annually.41

1.b(12). The process to determine risk to agency operations, agency assets, individuals, or
to authorize information systems to operate is not in accordance with government policies
(SP 800-37). False

No exception noted. We found the Department had a process to determine the risk to agency
operations, agency assets, and individuals, or to authorize information systems to operate.




39
   We are 95 percent confident that at least 76.3 percent of the risk assessments in our audit universe were not
conducted in accordance with Government policies. Additional sample analysis information is presented in exhibit
B.
40
   NIST SP 800-30, Risk Management Guide for Information Technology Systems (July 2002).
41
   OCIO established a working group to help select financially significant, key system, and common controls for the
Department for annual testing. Security controls were selected from the 17 control families of NIST SP 800-53,
Rev. 3.


20      AUDIT REPORT 50501-0002-12
1.b(13). The process to continuously monitor changes to information systems that may
necessitate reassessment of control effectiveness is not in accordance with government
policies (SP 800-37). True

NIST SP 800-53 states that the organization will assess the security controls in an information
system as part of the testing/evaluation process. However, we identified 48 of 257 systems
where ongoing assessments of selected security controls had not been performed in FY 2011.

1.b(14). Security plan is not in accordance with government policies (SP 800-18,
SP 800-37). True

The System Security Plans (SSP) we reviewed were inadequate and not in accordance with
Government policies.42 Specifically, the security controls were not implemented properly and
did not sufficiently address each control. For example, 12 of 12 systems stated the control
involving Security Awareness Training was an inherited control. However, this control could
not be inherited because procedures had to be developed by the agencies as required by
Departmental policy. Based on the statistical sample results, we estimate that all 55 SSPs are
inadequate.43 If all controls were not implemented effectively, systems may be inadequately
protected.

1.b(15). Security assessment report is not in accordance with government policies
(SP 800-53A, SP 800-37). True

The Department’s Security Assessment Reports (SARs) we reviewed failed to meet the
minimum security required by NIST SP 800-37.44 Our review of SARs found that 10 of 10 were
not conducted in accordance with Government policies. For example, our review found no
evidence that the required controls had been tested. Additionally, NIST SP 800-37 requires a
security assessment plan to be included with the SAR which provides the objectives for the
security control assessment, a detailed roadmap of how to conduct such an assessment, and
assessment procedures. We found during our review that security assessment plans were not
included in the Department’s SARs. Based on the sample results, we estimate that all 55 SARs
failed to meet the minimum NIST security requirements.45 As a result, USDA cannot be assured
that all system controls had been documented and tested, and that systems were operating at an
acceptable level of risk.




42
   The SSP is a required C&A document that provides an overview of the security requirements of the system and
describes the controls in place (or planned) for meeting those requirements. The SSP also delineates responsibilities
and expected behavior of all individuals who access the system. NIST SP 800-18, Guide for Developing Security
Plans for Federal Information Systems (February 2006).
43
   We are 95 percent confident that at least 80.3 percent of the SSPs for systems in the audit universe are inadequate.
Additional sample analysis information is presented in exhibit B.
44
   NIST SP 800-37, Rev. 1, Guide for Applying the Risk Management Framework to Federal Information Systems
(February 2010).
45
   We are 95 percent confident that at least 76.4 percent of the SARs for systems in the audit universe are
inadequate. Additional sample analysis information is presented in exhibit B.

                                                                         AUDIT REPORT 50501-0002-12                21
1.b(16). Accreditation boundaries for agency information systems are not defined in
accordance with government policies. False

No exception noted. We found all 18 systems reviewed met NIST SP 800-18 accreditation
boundaries.46


S2: Configuration Management
Section 2: Configuration Management

Check one: (2.a, 2.b, or 2.c)

2.a. The agency has established and is maintaining a security configuration management
program that is consistent with FISMA requirements, OMB policy, and applicable NIST
guidelines. Although improvement opportunities may have been identified by OIG, the
program includes the following attributes:
       2.a(1). Documented policies and procedures for configuration management.
       2.a(2). Standard baseline configurations defined.
       2.a(3). Assessing for compliance with baseline configurations.
       2.a(4). Process for timely, as specified in agency policy or standards, remediation of
       scan result deviations.
       2.a(5). For Windows-based components, FDCC/USGCB secure configuration
       settings fully implemented and any deviations from FDCC/USGCB baseline settings
       fully documented.
       2.a(6). Documented proposed or actual changes to hardware and software
       configurations.
       2.a(7). Process for timely and secure installation of software patches.

2.b. The agency has established and is maintaining a security configuration management
program. However, the agency needs to make significant improvements as noted below.

2.c. The agency has not established a security configuration management program.

If 2.b. is checked above, check areas that need significant improvement:

2.b(1). Configuration management policy is not fully developed (NIST 800-53: CM-1).
False

No exception noted. We found that the Department’s configuration management policy met
NIST SP 800-53 requirements.




46
     NIST SP 800-18, Guide for Developing Security Plans for Federal Information Systems (February 2006).


22         AUDIT REPORT 50501-0002-12
2.b(2). Configuration management procedures are not fully developed
(NIST 800-53: CM-1). True

NIST SP 800-53 requires that the organization develop formal documented procedures to
facilitate the implementation of the configuration management policy and associated
configuration management controls. OIG and independent contractors found that three of six
agencies reviewed did not have configuration management procedures or the procedures were
not fully developed. For example, one of the agencies was unable to provide any documented
procedures and a second agency did not have all required NIST SP 800-53 elements in its
procedure.

2.b(3). Configuration management procedures are not consistently implemented
(NIST 800-53: CM-1). True

As noted in 2.b(2), OIG and independent contractors found that three of six agencies either did
not have configuration management procedures or that the procedures were not consistently
implemented.

2.b(4). Standard baseline configurations are not identified for software components
(NIST 800-53: CM-2). False

No exception noted. NIST SP 800-53, under configuration control, requires the organization to
develop, document, and maintain a current baseline configuration of the information system.
The Department had issued a memo on May 26, 2011, stating that NIST SP 800-70 would be the
official baseline configuration guide repository for operating systems in use at USDA. 47 Our
review of three agencies found them using the NIST baseline configurations for all current
operating systems.

2.b(5). Standard baseline configurations are not identified for all hardware components
(NIST 800-53: CM-2). True

Federal Information Processing Standard (FIPS) 200 requires the organization to establish and
maintain baseline configurations and inventories of organizational information systems
(including hardware, software, firmware, and documentation) throughout the respective system
development life cycles.48 We found 3 of 12 systems did not adequately develop hardware
baseline configurations. Also, one agency was identified by independent contractors as not
having a standard baseline configuration for all hardware.




47
   NIST SP 800-70 rev. 2, National Checklist Program for IT Products—Guidelines for Checklist Users and
Developers (February 2011).
48
   FIPS Publication 200, Minimum Security Requirements for Federal Information and Information Systems
(March 2006), states that organizations must: (1) establish and maintain baseline configurations and inventories of
organizational information systems (including hardware, software, firmware, and documentation) throughout the
respective system development life cycles; and (2) establish and enforce security configuration settings for
information technology products employed in organizational information systems.

                                                                        AUDIT REPORT 50501-0002-12               23
2.b(6). Standard baseline configurations are not fully implemented (NIST 800-53: CM-2).
True

We found that five of seven agencies were not following standard baseline configurations. For
example, our review identified that over 45 percent of the Department's Windows 2003 server
configuration settings did not comply with current Federal guidelines. 49

2.b(7). FDCC/USGCB is not fully implemented (OMB) and/or all deviations are not fully
documented (NIST 800-53: CM-6). False

No exception noted. OMB required agencies with—or planning to update—Windows Vista or
Windows XP operating systems to adopt standard security configurations on workstations by
February 1, 2008.50 The standard security configurations were developed by NIST, DoD, and
DHS and are commonly referred to as the Federal desktop core configuration (FDCC). Our
reviews at 3 agencies found less than 7 percent of all required settings on workstations were not
compliant and that all deviations from the FDCC had fully documented waivers.

2.b(8). Software assessing (scanning) capabilities are not fully implemented
(NIST 800-53: RA-5, SI-2). True

The Department required all agencies to establish and implement procedures for accomplishing
monthly vulnerability scanning of all networks, systems, servers, and desktops for which it was
responsible.51 This includes performing monthly scans and remediating vulnerabilities found as
a result of the scans. OIG and independent contractors determined that three of six agencies
reviewed did not scan all devices and did not correct critical vulnerabilities in a timely manner.
For example, we found that one agency was not scanning over 1,600 machines on a monthly
basis as required. This occurred because the network and security groups were not
communicating.

2.b(9). Configuration-related vulnerabilities, including scan findings, have not been
remediated in a timely manner, as specified in agency policy or standards.
(NIST 800-53: CM-4, CM-6, RA-5, SI-2). True

NIST requires Federal agencies to establish and document mandatory configuration settings for
information technology products deployed within the information system, and to implement the
recommended configuration settings. Our review of seven agencies disclosed that configuration
vulnerabilities were not being mitigated and remediated timely. Specifically, we found that
75 of 216 network device settings were not configured in accordance with NIST SP 800-53.



49
   Defense Information Systems Agency, Windows 2003 Security Technical Implementation Guide Overview
(August 27, 2010). The NIST site incorporates checklists from various Federal entities including the Department of
Defense (DoD).
50
   OMB Memorandum 07-11, Implementation of Commonly Accepted Security Configurations for Windows
Operating Systems (March 22, 2007).
51
   USDA Department Manual (DM) 3530-001, USDA Vulnerability Scan Procedures (July 20, 2005).

24      AUDIT REPORT 50501-0002-12
2.b(10). Patch management process is not fully developed, as specified in agency policy or
standards. (NIST 800-53: CM-3, SI-2). False

No exception noted. NIST SP 800-53 requires Federal agencies to incorporate vendor software
flaw remediation (patches) into the organizational configuration management process. Our
review of three agencies identified that over 90 percent of all patches had been applied as
required.


S3: Incident Response and Reporting
Section 3: Incident Response and Reporting

Check one: (3.a, 3.b, or 3.c)

3.a. The agency has established and is maintaining an incident response and reporting
program that is consistent with FISMA requirements, OMB policy, and applicable NIST
guidelines. Although improvement opportunities may have been identified by OIG, the
program includes the following attributes:
       3.a(1). Documented policies and procedures for detecting, responding to, and
       reporting incidents.
       3.a(2). Comprehensive analysis, validation and documentation of incidents.
       3.a(3). When applicable, reports to US-CERT within established timeframes.
       3.a(4). When applicable, reports to law enforcement within established timeframes.
       3.a(5). Responds to and resolves incidents in a timely manner, as specified in agency
       policy or standards, to minimize further damage.
       3.a(6). Is capable of tracking and managing risks in a virtual/cloud environment, if
       applicable.
       3.a(7). Is capable of correlating incidents.

3.b. The agency has established and is maintaining an incident response and reporting
program. However, the agency needs to make significant improvements as noted below.

3.c. The agency has not established an incident response and reporting program.
If 3.b. is checked above, check areas that need significant improvement:

3.b(1). Incident response and reporting policy is not fully developed
(NIST 800-53: IR-1). False

No exception noted. We found that Department policy met all of NIST’s requirements. 52 The
Department has developed a new incident policy, which is in draft. As of September 30, 2011,
the policy had not yet been finalized.




52
     NIST SP-800-61, Computer Security Incident Handling Guide (March 2008).

                                                                    AUDIT REPORT 50501-0002-12   25
3.b(2). Incident response and reporting procedures are not fully developed or sufficiently
detailed (NIST 800-53: IR-1). True

Our review identified that the day-to-day procedures were not accurately reflected in the
documented Agriculture Security Operations Center (ASOC) Standard Operating Procedure
(SOP).53 As an example, we determined the SOP did not include the updated versions of incident
checklists utilized by the incident response team. In addition, audit work done by OIG and
independent contractors determined that three of four agencies did not have procedures that were
fully developed or sufficiently detailed. For example, two agencies had not developed
procedures, while the other two agencies’ procedures did not include the classification of the
types of incidents or the reporting requirements for the specific incident categories.

3.b(3). Incident response and reporting procedures are not consistently implemented in
accordance with government policies (NIST 800-61, Rev. 1). True

Our review of 66 incidents found that 7 were not handled in accordance with Departmental
procedures.54 Based on our overall statistical sample results, we estimate that 139 incidents
(9.4 percent of the universe) were not handled in accordance with Departmental procedures. 55
Specifically, agencies were required to submit documentation to the Department, detailing the
steps taken to close out the incident. Specific documents and completed forms were required to
be returned to the Department; however, we found that all seven incidents had either missing or
incomplete documentation. For example, all 7 incidents did not complete the 24-hour response
checklist as required by the Department’s SOP for incident reporting.
Additionally, we noted an incident that was identified at an agency which was not reported to
ASOC as required by Departmental incident response procedures.56 An agency employee
allowed an unauthorized individual to access her Federal computer. This unauthorized
individual subsequently modified system hardware and software characteristics without the
owner's knowledge and deployed malicious software on the computer. Though the agency was
notified of these malicious actions and was aware that the employee granted unauthorized access,
the agency failed to notify the Department. As of September 30, 2011, this incident was over
6 months old and not reported to the Department, as required.

3.b(4). Incidents were not identified in a timely manner, as specified in agency policy or
standards (NIST 800-53, 800-61, and OMB M-07-16, M-06-19). False

No exception noted.

53
   Agriculture Security Operations Center (ASOC) Computer Incident Response Team (CIRT), Standard Operating
Procedures for Reporting Security and Personally Identifiable Information Incidents, SOP-ASOC-001
(June 9, 2009).
54
   Stratum 1 is a census stratum of two incidents. For Stratum 2, the sample size of 64 incidents was based on an
expected error rate of 20 percent and a desired absolute precision of +/-10 percent of the audit universe, when
reporting a 95 percent confidence level. Additional sample design information is presented in exhibit B.
55
   We are 95 percent confident that between 33 (2.3 percent of the universe) and 244 (16.6 percent of the universe)
incidents were not handled in accordance with Departmental procedures. Additional sample design information is
presented in exhibit B.
56
   DM 3505-001, Cyber Security Incident Handling Procedure (March 20, 2006).

26      AUDIT REPORT 50501-0002-12
3.b(5). Incidents were not reported to US-CERT as required (NIST 800-53, 800-61, and
OMB M-07-16, M-06-19). True

The US-Computer Emergency Readiness Team (US-CERT) requires USDA to notify it of
incidents within specified timeframes that are based on the category of the incident.57 Our
review of incidents disclosed the Department did not report 5 of 66 incidents to US-CERT within
the required timeframe. Based on our statistical sample results, we estimate that 115 incidents
(7.8 percent of the universe) were not reported to US-CERT as required.58 For example, US-
CERT requires that lost or stolen equipment incidents be reported within 1 hour; however, we
found that the Department did not report a stolen laptop incident to US-CERT for 27 hours. In
addition, there were three incidents that we could not verify if US-CERT was notified according
to policy because the proper documents were not provided. We found that the email audit
logging feature for the incident tracking server was not activated until June 1, 2011. Therefore,
any emails automatically sent to US-CERT before that date, were not retrievable.

3.b(6). Incidents were not reported to law enforcement as required (SP 800-86). True

We found 2 of the 66 incidents were not reported to OIG as required by DM 3505-001.
Additionally, we identified that the automated email notification, which alerts OIG of cyber-
related security incidents, did not do so for over three months.

3.b(7). Incidents were not resolved in a timely manner (NIST 800-53, 800-61, and
OMB M-07-16, M-06-19). True

If an incident was not resolved after 30 days, the Department’s procedures require the agency to
open a plan of action and milestones (POA&M).59 We found that 6 of the 66 incidents were not
resolved within 30 days and no POA&Ms were created for the incidents. Based on our sample
results, we estimate 138 incidents (9.4 percent of the universe) were not resolved in a timely
manner.60




57
   US-CERT provides response support and defense against cyber attacks for the Federal Civil Executive Branch
(i.e., “.gov”) and information sharing and collaboration with State and local government, industry, and international
partners. US-CERT is the operational arm of the National Cyber Security Division (NCSD) at DHS. NCSD was
established by DHS to serve as the Federal Government’s cornerstone for cyber security coordination and
preparedness.
58
   We are 95 percent confident that between 18 (1.2 percent of the universe) and 212 (14.4 percent of the universe)
incidents were not reported to US-CERT as required. Additional sample design information is presented in
exhibit B.
59
   A POA&M is a tool that identifies tasks needing to be accomplished to assist agencies in identifying, assessing,
prioritizing, and monitoring the progress of corrective efforts for security weaknesses found in programs and
systems. It details resources required to accomplish the elements of the plan, milestones in meeting the task, and
scheduled completion dates for the milestones. The goal of a POA&M should be to reduce the risk of the weakness
identified.
60
   We are 95 percent confident that between 32 (2.2 percent of the universe) and 243 (16.5 percent of the universe)
incidents were not resolved in a timely manner. Additional sample design information is presented in exhibit B.

                                                                        AUDIT REPORT 50501-0002-12                27
3.b(8). Incidents were not resolved to minimize further damage (NIST 800-53, 800-61, and
OMB M-07-16, M-06-19). True

NIST SP 800-61 states incident response teams should use information gained during incident
handling to better prepare for future incidents and to provide stronger protections for systems and
data. We found that 14 of the 66 incidents were not resolved to minimize further damage. Based
on our statistical sample results, we estimate 322 incidents (21.8 percent of the universe) were
not resolved to minimize further damage.61 For example, a user had unauthorized software
installed on his computer. The remediation action taken by the agency was to contact the user
and tell him to uninstall the software without any additional follow-up.

3.b(9). There is insufficient incident monitoring and detection coverage in accordance with
government policies (NIST 800-53, 800-61, and OMB M-07-16, M-06-19). True

Our review of the Department's incident monitoring and detection capability determined the
Department had insufficient incident detection and monitoring coverage. From September 2010
to April 2011, USDA installed an incident detection toolkit, which alerts the Department to
potential cyber-related incidents. During FY 2011, USDA had three employees who were
responsible for monitoring the daily data, calibrating security tools, and performing incident
analysis. The individuals were able to analyze and process approximately 15 incidents per week.
However, the Department stated that with the appropriate resources, it would have been able to
process up to 150 incidents per week. NIST SP 800-53 requires the organization to report
suspected security incidents and related information to appropriate organizational authorities.
USDA has assigned this responsibility to the ASOC. According to the Department, it was aware
of the up to 150 weekly security-related incidents and that it did not have sufficient resources to
investigate or report the majority of them.

3.b(10). The agency cannot or is not prepared to track and manage incidents in a
virtual/cloud environment. True

NIST SP 800-53 requires the organization to track and document information security-related
incidents, no matter where the Federal information resides. Over the past two years, the
Department had implemented a cloud-based email solution.62 In discussions with Departmental
officials and a review of the agreement between USDA and the contractor, we were unable to
verify that USDA was prepared to track and manage incidents in this environment. We found
that these responsibilities were not adequately addressed in the agreement between the
Department and the cloud contractor. As a result, there was an increased risk of incidents
occurring within the cloud environment, which are not being identified and tracked by USDA.



61
   We are 95 percent confident that between 172 (11.7 percent of the universe) and 471 (32 percent of the universe)
incidents were not resolved to minimize further damage. Additional sample design information is presented in
exhibit B.
62
   Cloud computing is a model for enabling network access to a shared pool of computing resources that can be
rapidly provisioned and released with minimal management effort or service provider interaction. NIST SP 800-
145, The NIST Definition of Cloud Computing (September 2011).


28      AUDIT REPORT 50501-0002-12
3.b(11). The agency does not have the technical capability to correlate incident events.
False

No exception noted. ASOC possesses the technical capability to correlate incidents across
USDA’s network through the use of network analysis tools. However, as noted in 3.b(9), the
Department stated it did not have the resources to adequately process the number of incidents it
was currently monitoring.


S4: Security Training
Section 4: Security Training

Check one: (4.a, 4.b, or 4.c)

4.a. The agency has established and is maintaining a security training program consistent
with FISMA requirements, OMB policy, and applicable NIST guidelines. Although
improvement opportunities may have been identified by OIG, the program includes the
following attributes:
       4.a(1). Documented policies and procedures for security awareness training.
       4.a(2). Documented policies and procedures for specialized training for users with
       significant information security responsibilities.
       4.a(3). Security training content based on the organization and its roles, as specified
       in agency policy or standards.
       4.a(4). Identification and tracking of the status of security awareness training for all
       personnel (including employees, contractors, and other agency users) with access
       privileges that require security awareness training.
       4.a(5). Identification and tracking of the status of specialized training for all
       personnel (including employees, contractors, and other agency users) with
       significant information security responsibilities that require specialized training.

4.b. The agency has established and is maintaining a security training program. However,
the agency needs to make significant improvements as noted below.

4.c. The agency has not established a security training program.

If 4.b. is checked above, check areas that need significant improvement:

4.b(1). Security awareness training policy is not fully developed (NIST 800-53: AT-1).
False

No exception noted. We determined the Department's security awareness policy met all the
requirements outlined in NIST SP 800-53.63




63
     DM 3545-001, Computer Security Training and Awareness (February 17, 2005).

                                                                    AUDIT REPORT 50501-0002-12   29
4.b(2). Security awareness training procedures are not fully developed and sufficiently
detailed (NIST 800-53: AT-1). True

We determined the Department’s security awareness training procedures met all NIST SP 800-53
requirements.64 However, one of three agencies we reviewed did not have procedures in place to
ensure employees and contractors received adequate security awareness training.

4.b(3). Security awareness training procedures are not consistently implemented in
accordance with government policies (NIST 800-53: AT-2). True

We determined the Department’s security awareness training procedures met all NIST SP 800-53
requirements. However, as stated in 4.b(7), procedures were not consistently implemented. In
the 3 agencies reviewed, we found 1,383 of 10,904 users with login privileges did not have
evidence indicating they had completed their annual security awareness training.

4.b(4). Specialized security training policy is not fully developed (NIST 800-53: AT-3). True

We determined that the Department’s policy and two of three agencies’ policies for specialized
security training were not fully developed.65 We found the Department's policy for specialized
training was in draft form and did not include a definition of significant information security
responsibilities. Without a definition, agencies have interpreted the requirement inconsistently.
The Department’s policy was not finalized as of September 30, 2011.

4.b(5). Specialized security training procedures are not fully developed or sufficiently
detailed in accordance with government policies (SP 800-50, SP 800-53). True

We determined the Department’s and two of three agencies’ procedures for specialized security
training were not fully developed or sufficiently detailed. As noted in 4.b(4), specialized
security training policies did not include a definition of significant information security
responsibilities. Therefore, agencies interpreted the requirement inconsistently and not all users
who required specialized training received it. As a result, the Department increases its risk of
compromise by allowing users to access information system resources without the required
training.




64
   Departmental Standard Operating Procedure (SOP), Information Security Training, SOP-ISD 022 (October 7,
2008).
65
   NIST SP 800-53 requires the organization to provide basic security awareness training to all users. Additionally,
it requires the organization to identify and provide information system managers, system and network
administrators, personnel performing independent verification and validation activities, security control assessors,
and other personnel having access to system-level software with role-based specialized security training related to
their specific roles and responsibilities. The organization is to determine the appropriate content of security training
and the specific requirements of the organization and the information systems to which personnel have authorized
access.

30       AUDIT REPORT 50501-0002-12
4.b(6). Training material for security awareness training does not contain appropriate
content for the agency (SP 800-50, SP 800-53). False

No exception noted. We found that the training material for security awareness contained the
appropriate content to meet NIST SP 800-53 requirements.

4.b(7). Identification and tracking of the status of security awareness training for
personnel (including employees, contractors, and other agency users) with access privileges
that require security awareness training is not adequate in accordance with government
policies (SP 800-50, SP 800-53). True

NIST SP 800-53 requires agencies to document and monitor individual information system
security training activities and to retain individual training records. Our review found all three
agencies did not adequately identify and track employees with login privileges. Specifically, of
the 3 agencies reviewed, we found that 1,383 of 10,904 users with login privileges did not have
evidence that they completed their annual security awareness training.

4.b(8). Identification and tracking of the status of specialized training for personnel
(including employees, contractors, and other agency users) with significant information
security responsibilities is not adequate in accordance with government policies (SP 800-50,
SP 800-53). False

No exception noted. All three agencies provided OIG with a list of employees that required
specialized training. They also identified the course each user completed.

4.b(9). Training content for individuals with significant information security
responsibilities is not adequate in accordance with government policies (SP 800-53,
SP 800-16). True

NIST SP 800-53 requires agencies to provide specialized training to security professionals. Our
testing at 3 agencies found that 4 of 33 users identified as requiring specialized security training
did not have documented proof they received the training during FY 2011. For example, two of
the four employees identified non-specialized iPad and iPhone user training as their specialized
security training.

4.b(10). Less than 90 percent of personnel (including employees, contractors, and other
agency users) with access privileges completed security awareness training in the past year.
True

NIST SP 800-53 requires agencies to document and monitor individual information system
security training activities and to retain individual training records. Our testing of 3 sample
agencies identified only 9,521 of 10,904 users with login privileges (87 percent) had evidence of
completing the annual security awareness training.




                                                              AUDIT REPORT 50501-0002-12          31
4.b(11). Less than 90 percent of employees, contractors, and other users with significant
security responsibilities completed specialized security awareness training in the past year.
True

NIST SP 800-53 requires agencies to document and monitor individual information system
security training activities and to retain individual training records. Our testing of employees
with significant security responsibilities in 3 agencies found only 29 of 33 (88 percent) had
documented evidence of specialized training.


S5: POA&M
Section 5: POA&M

Check one: (5.a, 5.b, or 5.c)

5.a. The agency has established and is maintaining a POA&M program that is consistent
with FISMA requirements, OMB policy, and applicable NIST guidelines and tracks and
monitors known information security weaknesses. Although improvement opportunities
may have been identified by OIG, the program includes the following attributes:
       5.a(1). Documented policies and procedures for managing IT security weaknesses
       discovered during security control assessments and requiring remediation.
       5.a(2). Tracks, prioritizes and remediates weaknesses.
       5.a(3). Ensures remediation plans are effective for correcting weaknesses.
       5.a(4). Establishes and adheres to milestone remediation dates.
       5.a(5). Ensures resources are provided for correcting weaknesses.
       5.a(6). Program officials and contractors report progress on remediation to CIO on
       a regular basis, at least quarterly, and the CIO centrally tracks, maintains, and
       independently reviews/validates the POA&M activities at least quarterly.

5.b. The agency has established and is maintaining a POA&M program that tracks and
remediates known information security weaknesses. However, the agency needs to make
significant improvements as noted below.

5.c. The agency has not established a POA&M program.

If 5.b. is checked above, check areas that need significant improvement:

5.b(1). POA&M Policy is not fully developed. True

The Department’s security manual did not include a policy establishing a POA&M process for
reporting IT security deficiencies and for tracking the status of remediation efforts. The
Department stated that it was in the process of finalizing a draft policy. In addition, the three
agencies reviewed did not have POA&M policies. Instead, the agencies stated that they followed
the Department’s; however, the Department had not published an official POA&M policy.




32     AUDIT REPORT 50501-0002-12
5.b(2). POA&M procedures are not fully developed and sufficiently detailed. True

Although there were no formal policies, the Department distributed an updated SOP in August
2011.66 Our review of the SOP determined it was updated to include OMB-outlined criteria, and
that it reflected the current POA&M process. We found that of the eight agencies that OIG,
independent contractors, and annual agency self-assessments reviewed, seven did not have fully
developed or sufficiently detailed procedures and six of the agencies had no procedures at all.

5.b(3). POA&M procedures are not consistently implemented in accordance with
government policies. True

We found that procedures were not consistently implemented, as noted in 5.b(4)-(12). Without
adequate policies and procedures at both the Department and agency levels, there is no basis for
a consistent POA&M process.

5.b(4). POA&Ms do not include security weaknesses discovered during assessments of
security controls and requiring remediation (OMB M-04-25). True

We found POA&Ms did not include all known security weaknesses. For example, the
Department requires an agency to create a POA&M when an identified vulnerability cannot be
remediated within 30 days. However, our testing at 3 agencies found 1,224 vulnerabilities over
30 days old for which no POA&M had been created. We also found that agencies were only
creating one POA&M for all outstanding vulnerabilities, instead of grouping the vulnerabilities
to effectively manage weaknesses and ensure remediation efforts were tracked and recorded.
Additionally, we found 6 incidents that were open for over 30 days for which no POA&M was
created as required by Departmental SOP. Based on our statistical sample results, we estimate
138 incidents (9.4 percent of the universe) were not closed timely and did not have a POA&M
created to address them.67

5.b(5). Remediation actions do not sufficiently address weaknesses in accordance with
government policies (NIST SP 800-53, Rev. 3, Sect. 3.4 Monitoring Security Controls).
True

OMB specifies that effective remediation of IT security weaknesses is essential to achieve a
mature and sound IT security program, and for securing information and systems.68 We
determined that 8 of 43 POA&Ms closed in FY 2011 were closed without documented
remediation plans.69 Based on our sample results, we estimate 190 POA&Ms (19 percent of the


66
   Departmental SOP, Plan of Action and Milestones Management CPO SOP 002 (June 29, 2011).
67
   We are 95 percent confident that between 32 (2.2 percent of the universe) and 243 (16.5 percent of the universe)
incidents were not resolved in a timely manner. Additional sample design information is presented in exhibit B.
68
   OMB M-04-25, FY 2004 Reporting Instructions for the Federal Information Security Management Act
(August 23, 2004).
69
   We based the sample size on a very low expected error rate. If 0 errors were found, and we desired a 5 percent
chance or less of the error rate in the universe to exceed 5 percent, then our sample size would be 76 POA&Ms. We
selected a simple random sample of 76 POA&Ms for review with a possible stop or go decision point at 43
POA&Ms reviewed. Additional sample design information is presented in exhibit B.

                                                                       AUDIT REPORT 50501-0002-12              33
universe) were closed in FY 2011 without sufficient remediation actions to address the identified
weaknesses in accordance with government policies.70
5.b(6). Source of security weaknesses are not tracked (OMB M-04-25). True

OMB M-04-25 specifies that agencies should identify the source (e.g., program review, IG audit,
GAO audit, etc.) of the weakness. Our review of a statistical sample of POA&Ms open during
FY 2011 found that 32 of 93 POA&Ms did not track the source of the security weakness. Based
on our sample results, we estimate 721 POA&Ms (34.4 percent of the universe) did not track the
source of the security weakness.71

5.b(7). Security weaknesses are not appropriately prioritized (OMB M-04-25). True

OMB M-04-25 specifies that the purpose of a POA&M is to assist agencies in prioritizing the
progress of corrective efforts for security weaknesses found in programs and systems. Our
review of POA&Ms within the Department found 40 of 93 POA&Ms had security weaknesses
that were not appropriately prioritized. Based on our statistical sample results, we estimate 90
POA&Ms (43 percent of the universe) had security weaknesses that were inappropriately
prioritized.72 For example, the Department considers 33 security controls to be critical, and
requires agencies to test, report the results of that test, and create POA&Ms for weaknesses
found with these controls on an annual basis. We found 18 POA&Ms associated with these key
controls were prioritized as low or very low, instead of being assigned a higher priority. This
occurred due to agencies not updating the required priority field within CSAM, which
automatically defaulted to low or very low.

5.b(8). Milestone dates are not adhered to (OMB M-04-25). True

We found 65 of the 93 POA&Ms reviewed did not adhere to the POA&Ms milestone dates.
Based on our overall sample results, we estimate 1,464 POA&Ms (70 percent of the universe)
did not adhere to the milestone dates.73

5.b(9). Initial target remediation dates are frequently missed (OMB M-04-25). True

OMB M-04-25 specifies that a POA&M should include a scheduled completion date for
resolving the identified weakness. Our review of FY 2011 POA&Ms found 409 of 2,094 were
not completed by the scheduled date. Of the 409 POA&Ms that were not completed by the
scheduled completion date, we were able to determine, as of July 14, 2011:

70
   We are 95 percent confident that between 69 (7 percent) and 312 (30 percent) of closed POA&Ms in FY11 had
remediation actions that did not sufficiently address the identified weaknesses in accordance with government
policies. Additional sample design information is presented in exhibit B.
71
   We are 95 percent confident that between 519 (about 25 percent) and 922 (44 percent) of the POA&Ms did not
track the source of the security weakness. Additional sample design information is presented in exhibit B.
72
   We are 95 percent confident that between 691 (33 percent) and 1,111 (53 percent) of the FY11 POA&Ms had
security weaknesses that were not appropriately prioritized. Additional sample design information is presented in
exhibit B.
73
   We are 95 percent confident that between 1,269 (60 percent) and 1,658 (79 percent) of POA&Ms did not adhere
to milestone dates. Additional sample design information is presented in exhibit B.

34      AUDIT REPORT 50501-0002-12
     ·   218 POA&Ms were 1-89 days past due
     ·   96 POA&MS were 90-179 days past due
     ·   70 POA&Ms were 180-365 days past due
     ·   25 POA&Ms were over 365 days past due

We determined that USDA was not estimating reasonable remediation dates when generating
POA&Ms. This occurred because agencies were not developing detailed project plans for
remediation prior to creating POA&Ms.

5.b(10). POA&Ms are not updated in a timely manner (NIST SP 800-53, Rev. 3,
Control CA-5, and OMB M-04-25). True

Departmental procedures require that open POA&Ms be monitored on a routine basis and the
status of each POA&M should be updated no less than quarterly to demonstrate progress in
mitigating weaknesses. We found 15 of 93 POA&Ms had not been updated timely. Based on
our sample results, we estimate 338 POA&Ms (16 percent of the universe) were not updated in a
timely manner in accordance with Departmental procedures.74 For example, we identified 10
POA&Ms that had not been updated in the past six months.

5.b(11). Costs associated with remediating weaknesses are not identified
(NIST SP 800-53, Rev. 3, Control PM-3 and OMB M-04-25). True

We found that USDA had not met OMB M-04-25’s requirement that each POA&M include the
estimated amount of funding needed to remediate the weakness. We found 674 of 1,774
POA&Ms in FY 2011 had an associated cost of zero dollars for weakness remediation.

5.b(12). Agency CIO does not track and review POA&Ms (NIST SP 800-53, Rev. 3,
Control CA-5, and OMB M-04-25). True

The Department’s SOP states all POA&Ms resulting from an audit were subject to review by the
OCIO during the closure review process. In addition, the SOP requires the Department to review
another 10 percent of non-audit related, closed POA&Ms. We determined that POA&Ms were
not effectively tracked and reviewed by the Department. For example:

     ·   OCIO was unable to provide an accurate list of all closed POA&Ms it reviewed;
     ·   OCIO did not upload the required closure review checklist for 40 percent of the audit
         POA&Ms reviewed;
     ·   OCIO was not reviewing closed POA&Ms the same quarter in which they were closed,
         as required;
     ·   OIG was unable to verify that all audit POA&Ms had been reviewed. There was no
         automated process to track audit POA&Ms. Instead, the Department has a manual
         process without proper tracking and oversight; and


74
  We are 95 percent confident that between 182 (about 9 percent) and 494 (about 24 percent) of the POA&Ms were
not updated in a timely manner. Additional sample design information is presented in exhibit B.


                                                                    AUDIT REPORT 50501-0002-12             35
       ·   OIG could not verify that 10 percent of all closed, non-audit POA&Ms were being
           reviewed by the Department, due to inaccurate and inconsistent evidence provided to
           OIG.


S6: Remote Access Management
Section 6: Remote Access Management

Check one: (6.a, 6.b or 6.c)

6.a. The agency has established and is maintaining a remote access program that is
consistent with FISMA requirements, OMB policy, and applicable NIST guidelines.
Although improvement opportunities may have been identified by OIG, the program
includes the following attributes:
       6.a(1). Documented policies and procedures for authorizing, monitoring, and
       controlling all methods of remote access.
       6.a(2). Protects against unauthorized connections or subversion of authorized
       connections.
       6.a(3). Users are uniquely identified and authenticated for all access.
       6.a(4). If applicable, multi-factor authentication is required for remote access.
       6.a(5). Authentication mechanisms meet NIST Special Publication 800-63 guidance
       on remote electronic authentication, including strength mechanisms.
       6.a(6). Defines and implements encryption requirements for information
       transmitted across public networks.
       6.a(7). Remote access sessions, in accordance to OMB M-07-16, are timed-out after
       30 minutes of inactivity, after which re-authentication is required.

6.b. The agency has established and is maintaining a remote access program. However,
the agency needs to make significant improvements as noted below.

6.c. The agency has not established a program for providing secure remote access.

If 6.b. is checked above, check areas that need significant improvement:

6.b(1). Remote access policy is not fully developed (NIST 800-53: AC-1, AC-17). True

Although the Department had a remote access policy, we found it did not meet all NIST
requirements.75 We found that the Department’s policy did not address key areas such as the
administration of remote access servers and periodic reassessment of the telework device
policies.76 Specifically, there were two policy areas that were not addressed in the Departmental
policy as outlined by NIST SP 800-46. One area was the administration of remote access servers
and the other was periodic reassessment of telework device policies. We also found one of three
agencies reviewed did not have a remote access policy fully developed.

75
     NIST SP 800-46, Rev. 1, Guide to Enterprise Telework and Remote Access Security (June 2009).
76
     DM 3525-003 Telework and Remote Access Policy (February 17, 2005).

36         AUDIT REPORT 50501-0002-12
6.b(2). Remote access procedures are not fully developed and sufficiently detailed
(NIST 800-53: AC-1, AC-17). True

The Department did not provide any remote access procedures. The Department stated that it
was responsible for creating policy, but that it was the agencies’ responsibility to create
procedures to ensure the policy was implemented. We found the agencies did not have fully
developed or sufficiently detailed remote access procedures. For example, one agency's
handbook provided policy guidance for remote access and teleworking, but it did not provide
procedures for ensuring the policies were enforced.

6.b(3). Remote access procedures are not consistently implemented in accordance with
government policies (NIST 800-53: AC-1, AC-17). True

As noted in 6.b(2), remote access procedures were not fully developed or sufficiently detailed;
thus, they were not consistently implemented in accordance with government policies. We
found that of the seven agencies that OIG, independent contractors, and annual agency self-
assessments reviewed, five did not have remote access procedures implemented consistently. As
a result, inadequate security for remote access could result in the unauthorized access, use,
disclosure, disruption, modification, or destruction of information. For example, one agency's
handbook provided policy guidance for remote access and teleworking, but it did not provide
procedures for ensuring the policies were enforced.

6.b(4). Telecommuting policy is not fully developed (NIST 800-46, Section 5.1). True

As noted in 6.b(1) above, we found that Departmental policy did not meet NIST SP 800-46
guidance. We found two of the three agencies reviewed did not have a fully developed
telecommuting policy.

6.b(5). Telecommuting procedures are not fully developed or sufficiently detailed in
accordance with government policies (NIST 800-46, Section 5.4). True

We found all three agencies reviewed did not have fully developed telecommuting procedures.
For example, one agency was able to provide policies, but did not have detailed remote access
procedures.

6.b(6). Agency cannot identify all users who require remote access (NIST 800-46,
Section 4.2, Section 5.1). False

No exception noted. We found that of the seven agencies reviewed by OIG and independent
contractors, seven were able to identify all users requiring remote access.




                                                          AUDIT REPORT 50501-0002-12          37
6.b(7). Multi-factor authentication is not properly deployed (NIST 800-46, Section 2.2,
Section 3.3). True

Departmental Regulation 3505-003 specifies that agencies must implement multi-factor
authentication for all forms of remote access to agency information systems.77 We found that of
the 10 agencies that OIG, independent contractors, and annual agency self-assessments reviewed,
8 did not have multi-factor authentication properly implemented for remote access. The agencies
were not using the Departmental solution because they had not received all of their identification
cards.78 This caused them to employ interim solutions that did not use two-factor authentication
for remote access.

6.b(8). Agency has not identified all remote devices (NIST 800-46, Section 2.1). False

No exception noted. Our review and reviews conducted by independent contractors found five
agencies had identified all remote devices.

6.b(9). Agency has not determined all remote devices and/or end user computers have been
properly secured (NIST 800-46, Section 3.1 and 4.2). True

USDA had not implemented multi-factor authentication Department-wide, as noted in 6.b(7).
We also found two of three agencies reviewed had not completely implemented encryption on all
their remote access devices (including removable media) while waiting for the Departmental
solution to be implemented. For example, OIG found one agency had failed to encrypt 341
laptop devices because procedures were inadequate to ensure this was done for newly deployed
hardware.

6.b(10). Agency does not adequately monitor remote devices when connected to the
agency's networks remotely in accordance with government policies (NIST 800-46,
Section 3.2). True

We found that two of five agencies reviewed were not adequately monitoring remote devices
while they were connected to the agency's networks, as required by NIST SP 800-46. One
agency conducted only general network logging, and did not conduct specialized remote access
logging. Due to the dangers inherent in remote access, more stringent logging and review should
be initiated.




77
   USDA Departmental Regulation (DR) 3505-003, Access Control Policy (August 11, 2009). Multi-factor
authentication is a security process in which the user provides two means of identification, one of which is typically
a physical token, such as a card, and the other is typically something memorized, such as a security code. In this
context, the two factors involved are sometimes spoken of as “something you have and something you know.”
78
   USDA LincPass ID cards (Homeland Security Presidential Directive-12 (HSPD-12) credentials).

38      AUDIT REPORT 50501-0002-12
6.b(11). Lost or stolen devices are not disabled and appropriately reported
(NIST 800-46, Section 4.3, US-CERT Incident Reporting Guidelines). False

No exception noted. Our review found that all lost or stolen devices were disabled and
appropriately reported.

6.b(12). Remote access rules of behavior are not adequate in accordance with government
policies (NIST 800-53, PL-4). True

NIST SP 800-53 requires that agencies provide users with a Rules of Behavior document, and
that it be signed prior to allowing access to the system. We found one of four agencies reviewed
did not have adequate remote access Rules of Behavior. This occurred because one agency was
not aware it was required to have a Rules of Behavior document signed prior to allowing the user
access to the system.

6.b(13). Remote access user agreements are not adequate in accordance with government
policies (NIST 800-46, Section 5.1, NIST 800-53, PS-6). False

No exception noted. We reviewed four agencies and found all four had adequate remote access
user agreements.

6.b(14). Other. True

Remote access sessions, in accordance to OMB M-07-16, are not timed out after 30 minutes
of inactivity, after which re-authentication is required.

6.b(14ex). Explanation for Other

NIST SP 800-46 requires remote sessions to be timed-out after 30 minutes of inactivity. Our
review found that 2 of 3 agencies did not require sessions to be timed-out after 30 minutes of
inactivity. One agency had a time-out setting of 240 minutes.


S7: Identity and Access Management
Section 7: Identity and Access Management

Check one: (7.a, 7.b or 7.c)

7.a. The agency has established and is maintaining an identity and access management
program that is consistent with FISMA requirements, OMB policy, and applicable NIST
guidelines, and identifies users and network devices. Although improvement opportunities
may have been identified by OIG, the program includes the following attributes:
       7.a(1). Documented policies and procedures for account and identity management.
       7.a(2). Identifies all users, including federal employees, contractors, and others who
       access agency systems.



                                                            AUDIT REPORT 50501-0002-12           39
        7.a(3). Identifies when special access requirements (e.g., multi-factor
        authentication) are necessary.
        7.a(4). If multi-factor authentication is in use, it is linked to the agency's PIV
        program where appropriate.
        7.a(5). Ensures that the users are granted access based on needs and separation of
        duties principles.
        7.a(6). Identifies devices that are attached to the network and distinguishes these
        devices from users.
        7.a(7). Ensures that accounts are terminated or deactivated once access is no longer
        required.
        7.a(8). Identifies and controls use of shared accounts.

7.b. The agency has established and is maintaining an identity and access management
program that identifies users and network devices. However, the agency needs to make
significant improvements as noted below.

7.c. The agency has not established an identity and access management program.

If 7.b. is checked above, check areas that need significant improvement:

7.b(1) Account management policy is not fully developed (NIST 800-53: AC-1). True

We found that the Department’s identity and account management policy did not contain all
controls required by NIST SP 800-53.79 For example, Department policies did not address the
authorizing and monitoring of guest/anonymous, emergency, and temporary accounts. In
addition, two of the three agencies reviewed did not have a fully developed formal policy for
identity and account management. The Department’s new policy is in draft and is currently in the
clearance process.

7.b(2) Account management procedures are not fully developed and sufficiently detailed
(NIST 800-53: AC-1). True

We found that the Department issued a handbook for identity and account management
procedures.80 However, the handbook was for a new identity and account management program
that had not been fully implemented, and the handbook did not contain all controls required by
NIST SP 800-53. The Department plans to develop procedures after the implementation of the
new policy. Our review of the three selected agencies found that they also did not have formal
procedures meeting all NIST SP 800-53 requirements.




79
   DR 3505-003, Access Control Policy (August 11, 2009); DR 3180-001, Information Technology Network
Standards (September 30, 2008); and DR 3535-001, USDA's C2 Level of Trust (February 2005).
80
   USDA Identity, Credential and Access Management (ICAM) Identity Lifecycle Management Handbook (June
2011).

40     AUDIT REPORT 50501-0002-12
7.b(3) Account management procedures are not consistently implemented in accordance
with government policies (NIST 800-53: AC-2). True

We found that of the nine agencies that OIG, independent contractors, and annual agency self-
assessments reviewed, seven did not consistently implement account management procedures.
See questions 7.b(5)-(10).

7.b(4) Agency cannot identify all user and non-user accounts (NIST 800-53, AC-2). False

No exception noted.

7.b(5) Accounts are not properly issued to new users (NIST 800-53, AC-2). True

We found that of the 11 agencies that OIG, independent contractors, and annual agency self-
assessments reviewed, 5 were not properly issuing accounts to new users, as required by NIST
SP 800-53. NIST specifies that organizations should establish conditions for group membership,
identify authorized users, specify access privileges, require appropriate approval for establishing
accounts, and grant access, based on need. In addition, during the agency annual self-
assessments performed, five agencies identified weaknesses in their processes for properly
issuing new user accounts. Agencies were not properly documenting and approving new user
requests, in accordance with their own policies and procedures.

7.b(6) Accounts are not properly terminated when users no longer require access
(NIST 800-53, AC-2). True

Departmental regulations require accounts to be deleted or disabled within 48 hours of a user’s
separation. 81 We found that of the nine agencies that OIG, independent contractors, and annual
agency self-assessments reviewed, eight did not properly terminate user accounts when access
was no longer required. For example, one agency's policy stated emergency and temporary
access will be removed within 7 days and routine termination of user accounts will occur within
30 calendar days. Another agency did not have a timely way of reporting separated employees,
which allowed the accounts to remain active 30 days past the separation date. As a result of
these reviews, we found 28 user accounts that remained active after the user had left Federal
service, which could result in unauthorized access, use, disclosure, disruption, modification, or
destruction of information.

7.b(7) Agency does not use multi-factor authentication where required (NIST 800-53,
IA-2). True

As noted in 6.b(7), we found 8 of the 10 agencies that OIG and independent contractors reviewed
did not require multi-factor authentication.




81
     DR 3505-003, Access Control Policy (August 11, 2009).

                                                             AUDIT REPORT 50501-0002-12         41
7.b(8) Agency has not adequately planned for implementation of PIV for logical access in
accordance with government policies (HSPD 12, FIPS 201, OMB M-05-24, OMB M-07-06,
OMB M-08-01, OMB M-11-11). True

We found that the Department had not adequately planned for implementing Personal
Identification Verification (PIV) cards for logical access in accordance with government
policies.82 The status report published on the USDA website reported only 66 percent of the
required PIV cards have been activated. Our review also found that of the six agencies that OIG,
independent contractors and annual agency self-assessments reviewed, three did not adequately
plan for the implementation of PIV for computer access. Department-wide implementation had
been delayed due to problems with the timely issuance of the PIV cards. In addition, one agency
was unable to provide the status of its PIV implementation. As a result, the mandatory
implementation of the PIV card, which was first introduced in 2005, was still pending within the
Department and may result in unauthorized access, misuse, disclosure, disruption, modification,
or destruction of information.

7.b(9) Privileges granted are excessive, or result in capability to perform conflicting
functions (NIST 800-53, AC-2, AC-6). True

We found that of the 10 agencies that OIG, independent contractors, and annual agency
self-assessments reviewed, 7 had granted users excessive privileges, allowing them the capability
to perform conflicting functions. These agencies did not ensure that users were granted access
based on their work needs, and did not follow separation of duty principles, as required by
NIST SP 800-53.
NIST states that organizations should identify authorized users of information systems and
specify access privileges, require appropriate approval, grant access based on need, periodically
review accounts, provide additional scrutiny of administrative accounts, follow separation of
duty principles, and use the concept of least privilege. We found three agencies reported
weaknesses in granting excessive privileges and separation of duties in their annual self-
assessments.

7.b(10) The agency does not use dual accounts for administrators (NIST 800-53, AC-5,
AC-6). True

We found that of the seven agencies that OIG, independent contractors, and annual agency
self-assessments reviewed, five were not using dual accounts for administrators, as required by



82
   FIPS Publication 201-1 Personal Identity Verification (PIV) of Federal Employees and Contractors (March 2006)
states that HSPD-12, entitled Policy for a Common Identification Standard for Federal Employees and Contractors,
provides for a Federal standard for secure and reliable forms of identification for Federal employees and contractors.
Implementation of HSPD-12 specifies that the credential is an integrated circuit card. The card must store
personalized identity information for the person to whom the card was issued. The cards will be used for electronic
verification for logical access to information resources. For example, when a cardholder logs in to an agency
network using the PIV card, the identity established through this authentication process can be used for determining
access to file systems, databases, and other services available on the network.

42      AUDIT REPORT 50501-0002-12
NIST SP 800-53. NIST states that a privileged user should have a second, non-privileged
account to support the principle of least privilege. This is commonly referred to as dual accounts
for administrators. For example, in our review of one agency's access listing, we found 14
administrators who did not have dual accounts and 6 users who had dual accounts but had the
same elevated privilege granted to both accounts.

7.b(11) Network devices are not properly authenticated (NIST 800-53, IA-3). False

No exception noted.

7.b(12) The process for requesting or approving membership in shared privileged accounts
is not adequate in accordance to government policies. False

No exception noted.

7.b(13) Use of shared privileged accounts is not necessary or justified. False

No exception noted.

7.b(14) When shared accounts are used, the agency does not renew shared account
credentials when a member leaves the group. True

Our review found that of five agencies that OIG, independent contractors, and annual agency
self-assessments reviewed, one did not renew shared account credentials when a member leaves
the group.83 One agency reported when a member of a shared account leaves the group, the
account credentials were not immediately changed. Instead, the shared account credentials may
not have expired for 90-180 days. As a result, these shared accounts were vulnerable to
unauthorized access, which may result in misuse, disclosure, disruption, modification, or
destruction of information.


S8: Continuous Monitoring Management
Section 8: Continuous Monitoring Management

Check one: (8.a, 8.b or 8.c)

8.a. The agency has established an enterprise-wide continuous monitoring program that
assesses the security state of information systems that is consistent with FISMA
requirements, OMB policy, and applicable NIST guidelines. Although improvement
opportunities may have been identified by OIG, the program includes the following
attributes:


83
  A shared account is a set of users assigned to a security group. The security group is assigned appropriate
permissions to access specific resources such as administrative functions. This simplifies administration so that
permissions are assigned once to the group instead of multiple times to each individual user. When a user is added
to an existing group, the user automatically assumes the rights and permissions assigned to that group.


                                                                       AUDIT REPORT 50501-0002-12               43
       8.a(1). Documented policies and procedures for continuous monitoring.
       8.a(2). Documented strategy and plans for continuous monitoring.
       8.a(3). Ongoing assessments of security controls (system-specific, hybrid, and
       common) that have been performed based on the approved continuous monitoring
       plans.
       8.a(4). Provides authorizing officials and other key system officials with security
       status reports covering updates to security plans and security assessment reports, as
       well as POA&M additions and updates with the frequency defined in the strategy
       and/or plans.

8.b. The agency has established an enterprise-wide continuous monitoring program that
assesses the security state of information systems. However, the agency needs to make
significant improvements as noted below.

8.c. The agency has not established a continuous monitoring program.

If 8.b. is checked above, check areas that need significant improvement:

8.b(1). Continuous monitoring policy is not fully developed (NIST 800-53: CA-7). True

The Department did not have a continuous monitoring policy. The program is not scheduled for
full implementation until December 2011. In addition, we found all three agencies reviewed
during this audit did not have a fully developed continuous monitoring policy that met
NIST SP 800-53 requirements.

8.b(2). Continuous monitoring procedures are not fully developed (NIST 800-53: CA-7).
True

The Department and the three agencies reviewed during this audit were not able to provide
procedures governing continuous monitoring. NIST SP 800-53 requires that organizations
establish a continuous monitoring strategy and implement a continuous monitoring program.
The program should include a configuration management process for the information system and
its constituent components. It also requires a determination of the security impact of changes to
the information system and environment of operation.

8.b(3). Continuous monitoring procedures are not consistently implemented
(NIST 800-53: CA-7; 800-37 Rev. 1, Appendix G). True

As noted in 8.b(2), continuous monitoring procedures were not provided and therefore could not
be consistently implemented. The Department has stated it lacks the resources to implement
robust, enterprise-wide, continuous monitoring capabilities. As a result, the Department cannot
effectively detect compliance and determine if security controls within an information system are
effective.




44     AUDIT REPORT 50501-0002-12
8.b(4). Strategy or plan has not been fully developed for enterprise-wide continuous
monitoring (NIST 800-37 Rev. 1, Appendix G). True

NIST SP 800-37 states that an organization should formulate a robust strategy or plan for entity-
wide continuous monitoring. The plan should consist of a comprehensive governance structure
and organization-wide risk management strategy, which includes the techniques and
methodologies the organization plans to employ to assess information system security risks. We
found the strategy and plans the Department provided for developing an entity-wide continuous
monitoring plan were in draft and are estimated to be completed by December 2011. Although
the plan has not been fully developed, during the year the Department deployed powerful
monitoring tools which, when fully operational, would be a large part of the continuous
monitoring program.

8.b(5). Ongoing assessments of security controls (system-specific, hybrid, and common)
have not been performed (NIST 800-53, NIST 800-53A). True

NIST SP 800-53 states that the organization will assess the security controls in an information
system as part of the testing/evaluation process. We identified 48 of 257 systems in which
ongoing assessments of selected security controls had not been performed in FY 2011.

8.b(6). The following were not provided to the authorizing official or other key system
officials: security status reports covering continuous monitoring results, updates to security
plans, security assessment reports, and POA&Ms (NIST 800-53, NIST 800-53A). True

We found two of three agencies did not provide the system-authorizing official or other key
system officials with security status reports covering continuous monitoring results, updates to
security plans, security assessment reports, and POA&Ms. This occurred because policies and
procedures had not been issued, and agencies were unaware that these documents should have
been provided to the authorizing official.


S9: Contingency Planning
Section 9: Contingency Planning

Check one: (9.a, 9.b, or 9.c)

9.a. The agency established and is maintaining an enterprise-wide business
continuity/disaster recovery program that is consistent with FISMA requirements, OMB
policy, and applicable NIST guidelines. Although improvement opportunities may have
been identified by OIG, the program includes the following attributes:
        9.a(1). Documented business continuity and disaster recovery policy providing the
        authority and guidance necessary to reduce the impact of a disruptive event or
        disaster.
        9.a(2). The agency has performed an overall Business Impact Analysis (BIA).
        9.a(3). Development and documentation of division, component, and IT
        infrastructure recovery strategies, plans and procedures.


                                                            AUDIT REPORT 50501-0002-12            45
           9.a(4). Testing of system-specific contingency plans.
           9.a(5). The documented business continuity and disaster recovery plans are in place
           and can be implemented when necessary.
           9.a(6). Development of test, training, and exercise (TT&E) programs.
           9.a(7). Performance of regular ongoing testing or exercising of business
           continuity/disaster recovery plans to determine effectiveness and to maintain
           current plans.

9.b. The agency has established and is maintaining an enterprise-wide business
continuity/disaster recovery program. However, the agency needs to make significant
improvements as noted below.

9.c. The agency has not established a business continuity/disaster recovery program.

If 9.b. is checked above, check areas that need significant improvement:

9.b(1). Contingency planning policy is not fully developed contingency planning policy is
not consistently implemented (NIST 800-53: CP-1). True

NIST SP 800-53 states that the organization develops, disseminates, and reviews/updates a
formal, documented contingency planning policy. We found that the Department's contingency
planning policy did not meet these requirements.84 For example, the policy did not address
alternate telecommunications providers. This occurred because the Department’s policy has not
been updated with the new NIST SP 800-53 elements. We also found that of the 18 policies that
OIG, independent contractors, and annual agency self-assessments reviewed, 5 did not meet
these requirements.

9.b(2). Contingency planning procedures are not fully developed (NIST 800-53: CP-1).
True

We found three of three agencies reviewed were following the Department's template for
developing contingency plans.85 However, our review found that the template did not contain all
of the required NIST SP 800-53 elements. Specifically, it did not cover the need for alternate
telecommunications providers. This occurred because the Department’s policy has not been
updated with the new NIST SP 800-53 elements. A total of 9 out of 17 systems failed to address
alternate telecommunications providers because the element was not in the Department's
template.

9.b(3). Contingency planning procedures are not consistently implemented
(NIST 800-53; 800-34). True

NIST SP 800-53 requires the agency to have formal, documented procedures to facilitate the
implementation of a contingency planning policy and associated contingency planning controls.

84
     DM 3570-001, Disaster Recovery and Business Resumption Plans (February 17, 2005).
85
     USDA Contingency Plan Template (March 2011).

46         AUDIT REPORT 50501-0002-12
We found three of three agencies were not consistently implementing contingency planning
procedures. For example, two agencies were not backing up data, and one agency was not
testing its contingency plan as required.

9.b(4). An overall business impact assessment (BIA) has not been performed
(NIST SP 800-34). True

NIST SP 800-34 states that conducting the BIA is a key element in a comprehensive information
system contingency planning process.86 The Department's guide on developing contingency
plans requires that a BIA is completed for each system. We found 2 of 17 systems did not have a
BIA.

9.b(5). Development of organization, component, or infrastructure recovery strategies and
plans has not been accomplished (NIST SP 800-34). False

No exception noted.

9.b(6). A business continuity/disaster recovery plan has not been developed (FCD1,
NIST SP 800-34). False

No exception noted.

9.b(7). A business continuity/disaster recovery plan has been developed, but not fully
implemented (FCD1, NIST SP 800-34). True

NIST SP 800-53 requires the agency to have formal, documented procedures to facilitate the
implementation of its contingency planning policy and associated controls. We found that three
of three agencies had developed business continuity/disaster recovery plans; however, one
agency had not fully implemented the plan. The agency’s contingency plan was in the process of
being rewritten to reflect a major system change and was not completed by
September 30, 2011.87

9.b(8). System contingency plans missing or incomplete (FCD1, NIST SP 800-34,
NIST SP 800-53). True

NIST SP 800-53 requires Federal agencies to develop a formal, documented contingency plan
that addresses purpose, scope, roles, responsibilities, management commitment, and coordination
among organizational entities in planning controls. We identified that 10 of 17 systems had




86
     NIST SP 800-34, Contingency Planning Guide For Federal Information Systems, (May 2010).
87
     The application developers and the agency CIO did not see any reason to test an obsolete contingency plan.

                                                                         AUDIT REPORT 50501-0002-12               47
incomplete contingency plans.88 For example, nine plans failed to address alternate
telecommunication providers. Based on our sample results, for the 3 agencies, we estimate that
22 systems (about 59 percent) had missing or incomplete contingency plans.89

This occurred because the plans utilized the template set forth by the Department which did not
meet NIST SP 800-53 standards. In one instance the contingency plan was being updated to the
new template. As a result of not having complete contingency plans, agency information
systems were at risk of not being able to restore mission critical and business operations in the
event of a disaster.

9.b(9). Systems contingency plans are not tested (FCD1, NIST SP 800-34, NIST SP 800-53).
True

NIST SP 800-53 requires Federal agencies to test and exercise contingency plans for information
systems, using organization-defined tests or exercises. This is done to determine the plan’s
effectiveness, and the organization's readiness to execute the plan and initiate corrective actions.
We identified 33 of 257 systems for which USDA system contingency plans had not been tested
during FY 2011.

9.b(10). Test, training, and exercise programs have not been developed (FCD1,
NIST SP 800-34, NIST 800-53). True

We found one of the three agencies that OIG and independent contractors reviewed had not fully
developed training, testing, and exercise approaches.

9.b(11). Test, training, and exercise programs have been developed, but are not fully
implemented (FCD1, NIST SP 800-34, NIST SP 800-53). True

We found that of the 18 agencies OIG, independent contractors, and annual agency self-
assessments reviewed, 4 had not fully implemented training, testing, and exercise programs.

9.b(12). After-action report did not address issues identified during contingency/disaster
recovery exercises (FCD1, NIST SP 800-34). True

NIST SP 800-34 states that all recovery and reconstitution events should be well documented,
including actions taken and problems encountered during recovery and reconstitution efforts. An
after-action report with lessons learned should be documented and updated. Our review found


88
   We selected a simple random sample of 25 contingency plans for review. Our simple random sample included at
least one contingency plan from each of the three selected agencies, so we did not use stratification. An expected
error rate of 100 percent was used. The achieved confidence intervals were wider than targeted in the design
because only the first 17 system contingency plans were reviewed. All projections were made using the normal
approximation to the binomial as reflected in standard equations for a simple random sample. Additional sample
design information is presented in exhibit B.
89
   We are 95 percent confident that between 15 (40 percent) and 29 systems (78 percent) had missing or incomplete
contingency plans. Additional sample analysis information is presented in exhibit B.

48      AUDIT REPORT 50501-0002-12
that 1 of 17 systems did not have an after-action report that addressed issues identified during the
disaster recovery exercise.

9.b(13). Systems do not have alternate processing sites (FCD1, NIST SP 800-34,
NIST SP 800-53). True

NIST SP 800-53 requires alternate processing sites to be established for information systems in
case of a disaster. External contractors identified that one of five agencies did not have an
alternate processing site established for information systems.

9.b(14). Alternate processing sites are subject to the same risks as primary sites (FCD1,
NIST SP 800-34, NIST SP 800-53). False

No exception noted.

9.b(15). Backups of information are not performed in a timely manner (FCD1,
NIST SP 800-34, NIST SP 800-53). True

NIST SP 800-53 states that the organization should conduct user level, system level, and
information system documentation backups. We found 3 of 17 systems that OIG reviewed were
not performing backups in a timely manner. For example, one agency could not find the system
on the network in order to start the backup. Based on the results of our statistical sample, we
estimate that seven systems (about 18 percent) did not perform backups in a timely manner.90

9.b(16). Backups are not appropriately tested (FCD1, NIST SP 800-34, NIST SP 800-53).
True

NIST SP 800-53 states that the organization should test backup information to verify media
reliability and information integrity. We found that 5 of 17 systems had not performed regular
backup recovery tests.91 For example, one agency we reviewed did not include backup and
testing as part of its annual testing. Based on our sample results, we estimate that backups for 11
systems in our audit universe (about 29 percent) were not appropriately tested.92

9.b(17). Backups are not properly secured and protected (FCD1, NIST SP 800-34,
NIST SP 800-53). True

NIST SP 800-53 states that the organization should protect the confidentiality and integrity of
backup information at the storage location. OIG and the agency annual self-assessments found 2
of 13 agencies were not properly securing and protecting backups. For example, one agency was
not aware that they were required to document and track weekly backup tapes.


90
   We are 95 percent confident that backups for up to 12 systems (33 percent) were not performed in a timely
manner. Additional sample analysis information is presented in exhibit B.
91
   Regular is considered to be at least annually during the contingency plan testing.
92
   We are 95 percent confident that up to 17 systems’ backups (47 percent) were not appropriately tested. Details of
this design and additional sample analysis information are presented in exhibit B.

                                                                       AUDIT REPORT 50501-0002-12               49
9.b(18). Contingency planning does not consider supply chain threats. False

No exception noted.


S10: Contractor Systems
Section 10: Contractor Systems

Check one: (10.a, 10.b or 10.c)

10.a. The agency has established and maintains a program to oversee systems operated on
its behalf by contractors or other entities, including agency systems and services residing in
the cloud external to the agency. Although improvement opportunities may have been
identified by OIG, the program includes the following attributes:
        10.a(1). Documented policies and procedures for information security oversight of
        systems operated on the agency's behalf by contractors or other entities, including
        agency systems and services residing in public cloud.
        10.a(2). The agency obtains sufficient assurance that security controls of such
        systems and services are effectively implemented and comply with federal and
        agency guidelines.
        10.a(3). A complete inventory of systems operated on the agency's behalf by
        contractors or other entities, including agency systems and services residing in
        public cloud.
        10.a(4). The inventory identifies interfaces between these systems and agency-
        operated systems.
        10.a(5). The agency requires appropriate agreements (e.g., MOUs, Interconnection
        Security Agreements, contracts, etc.) for interfaces between these systems and those
        that it owns and operates.
        10.a(6). The inventory of contractor systems is updated at least annually.
        10.a(7). Systems that are owned or operated by contractors or entities, including
        agency systems and services residing in public cloud, are compliant with FISMA
        requirements, OMB policy, and applicable NIST guidelines.

10.b. The agency has established and maintains a program to oversee systems operated on
its behalf by contractors or other entities, including agency systems and services residing in
public cloud. However, the agency needs to make significant improvements as noted below.

10.c. The agency does not have a program to oversee systems operated on its behalf by
contractors or other entities, including agency systems and services residing in public
cloud.

If 10.b. is checked above, check areas that need significant improvement:




50     AUDIT REPORT 50501-0002-12
10.b(1). Policies to oversee systems operated on the agency's behalf by contractors or other
entities, including agency systems and services residing in public cloud, are not fully
developed. True

We found the Department did not have a policy to oversee systems operated on the agency’s
behalf by contractors or other entities. The Department is in the process of drafting a memo on
overseeing contractors’ systems.

10.b(2). Procedures to oversee systems operated on the agency's behalf by contractors or
other entities, including agency systems and services residing in public cloud, are not fully
developed. True

We found the Department did not have procedures to oversee systems operated on the agency’s
behalf by contractors or other entities. The Department stated that the agencies were responsible
for developing their own procedures. We found that two of three agencies we reviewed had not
developed procedures and the remaining agency’s procedures were not sufficiently detailed.

10.b(3). Procedures to oversee systems operated on the agency's behalf by contractors or
other entities, including agency systems and services residing in public cloud, are not
consistently implemented. True

As noted in 10.b(2), neither the Department nor the agencies reviewed had procedures that were
adequate; therefore, there is no basis to evaluate consistent implementation.

10.b(4). The inventory of systems owned or operated by contractors or other entities,
including agency systems and services residing in public cloud, is not complete in
accordance with government policies (NIST 800-53: PM-5). True

The Department did not have an accurate inventory of contractor systems for all agencies.
During the FY 2009 and FY 2010 FISMA audit, we identified systems which should have been
designated as contractor systems. In response, the Department stated that it would review the
systems and change the designation to contractor systems, if appropriate. During this year’s
audit, we found seven systems were still not included in the inventory of contractor systems.
This occurred because there were no policies, or procedures, for the oversight of contractor
systems.

OIG also found that the Department’s new cloud email service was not included in the official
USDA inventory and was not designated as a contractor system.

10.b(5). The inventory does not identify interfaces between contractor/entity-operated
systems to agency owned and operated systems. True

FISMA requires the Department to maintain an inventory of information systems, including an
identification of the interfaces between each system, and all other systems or networks, including




                                                            AUDIT REPORT 50501-0002-12        51
those not operated by, or under the control of, the agency.93 We found agencies were not
maintaining an accurate inventory of interfaces. We reviewed 18 SSPs and then compared the
list of interfaces to those documented in CSAM. We found that all 18 systems incorrectly
reported interconnections to other systems not operated by the agency (i.e. contractors’ systems).
Agencies were responsible for accurately documenting interface data in CSAM, but failed to
account for all interconnections. Since interfaces allow for the exchange of data between two
systems, it is important that security controls in each interconnected system accurately reflect the
risk of inadvertent information disclosure. Without proper documentation and testing of those
interfaces, the confidentiality, integrity, and availability of the exchanged data could be
compromised without discovery.

10.b(6). The inventory of contractor/entity-operated systems, including interfaces, is not
updated at least annually. True

NIST specifies that organizations should review security controls for interconnection at least
annually, or whenever a significant change occurs, to ensure they are operating properly and are
providing appropriate levels of protection.94 As noted in 10.b(4), the Department did not update
its inventory of contractor systems in FY 2011. In addition, as noted in 10.b(5), we found that
the Department had not identified all interfaces.

10.b(7). Systems owned or operated by contractors and entities are not subject to NIST
and OMB's FISMA requirements (e.g., security requirements). False

No exception noted. We reviewed the contract executed between USDA and its cloud email
services vendor and determined that the executed agreement included clauses requiring the
contractor to adhere to NIST and FISMA requirements.

10.b(8). Systems owned or operated by contractors and entities do not meet NIST and
OMB’s FISMA requirements (e.g., security requirements). True

We found 18 of 18 contractor systems had not been updated in accordance with government
policies, and did not meet NIST SP 800-53 and OMB's FISMA requirements.95 In addition, OIG
performed physical and environmental control reviews at the cloud email contractor’s primary
and backup data center. We found all reviewed controls in place and operating effectively.

10.b(9). Interface agreements (e.g., MOUs) are not properly documented, authorized, or
maintained. True

We found the Department did not maintain an inventory of interface agreements.
NIST SP 800-47 states that a Memorandum of Understanding (MOU) defines the responsibilities
of the participating organizations, and that the joint planning team should identify and examine


93
   FISMA of 2002, Title III, Information Security (December 17, 2002).
94
   NIST SP 800-47, Security Guide for Interconnecting Information Technology Systems (August 2002).
95
   OMB M 11-33, FY 2011 Reporting Instructions for the Federal Information Security Management Act and
Agency Privacy Management (September 14, 2011).

52      AUDIT REPORT 50501-0002-12
all relevant technical, security, and administrative issues surrounding the proposed
interconnection. This information may be used to develop an Interconnection Security
Agreement (ISA) and/or an MOU (or an equivalent document). Specifically, we found 17 of the
18 systems reviewed during this audit did not have the required MOU/ISA.


S11: Security Capital Planning
Section 11: Security Capital Planning

Check one: (11.a, 11.b or 11.c)

11.a. The agency has established and maintains a security capital planning and investment
program for information security. Although improvement opportunities may have been
identified by OIG, the program includes the following attributes:

11.a(1). Documented policies and procedures to address information security in the capital
planning and investment control process. False

We reviewed capital planning policies and procedures at the Department and agencies to
determine if all critical elements were included in the documents.96 We determined that the
policy and procedures at the Department and agency levels included all required criteria for the
capital planning process with one exception. One of seven criteria required by OMB and NIST
guidance was not included in the Departmental guidance.97 Specifically, the policy lacked a
description of what constitutes a major IT investment according to the capital planning process.
This occurred because the Capital Planning Division was not aware the criterion needed to be
included in the Departmental policy.

11.a(2). Includes information security requirements as part of the capital planning and
investment process. True

No exception noted.

11.a(3). Establishes a discrete line item for information security in organizational
programming and documentation. True

No exception noted.




96
   Capital Planning and Investment Control (CPIC) is a systematic approach to selecting, managing, and evaluating
information technology investments, which is mandated by the Clinger Cohen Act of 1996 and requires federal
agencies to focus more on the results achieved through IT investments while streamlining the federal IT
procurement process (www.ocio.usda.gov/cpic/index.html).
97
   OMB A-11, Part 7, Planning, Budgeting, Acquisition, and Management of Capital Assets (July 2010); NIST SP
800-65, Integrating IT Security into the Capital Planning and Investment Control Process (January 2005); DM
3560-000, Capital Planning & Investment Control (CPIC) for Security Table of Content (February 17, 2005); and
DM 3560-001, Security Requirements for CPIC (February 17, 2005).

                                                                      AUDIT REPORT 50501-0002-12               53
11.a(4). Employs a business case/Exhibit 300/Exhibit 53 to record the information security
resources required. True

No exception noted.

11.a(5). Ensures that information security resources are available for expenditure as
planned. True

No exception noted.

11.b. The agency has established and maintains a capital planning and investment
program. However, the agency needs to make significant improvements as noted below.

11.c. The agency does not have a capital planning and investment program.

If 11.b. is checked above, check areas that need significant improvement:

11.b(1). CPIC information security policy is not fully developed.
11.b(2). CPIC information security procedures are not fully developed.
11.b(3). CPIC information security procedures are not consistently implemented.
11.b(4). The agency does not adequately plan for IT security during the CPIC process (SP
800-65).
11.b(5). The agency does not include a separate line for information security in
appropriate documentation (NIST 800-53: SA-2).
11.b(6). Exhibits 300/53 or business cases do not adequately address or identify
information security costs (NIST 800-53: PM-3).
11.b(7). The agency does not provide IT security funding to maintain the security levels
identified.




54    AUDIT REPORT 50501-0002-12
Exhibit B: Sampling Methodology and Projections: Audit Number
50501-0002-12 FISMA FY2011
Objective:
This sample was designed to support OIG audit number 50501-0002-12. The objective of this
audit was to evaluate the status of USDA’s overall IT security program based on the following
overarching criteria:
   ·   Effectiveness of the Department’s oversight of agencies’ IT security programs, and
       compliance with FISMA;
   ·   Agencies’ system of internal controls over IT assets;
   ·   Department’s progress in establishing a Departmentwide security program, which
       includes effective certifications and accreditations;
   ·   Agencies’ and Department’s plan of action and milestones (POA&M) consolidation and
       reporting process; and
   ·   Effectiveness of controls over configuration management, incident response, IT training,
       remote access management, identity and access management, continuous monitoring,
       contingency planning, contractor systems and capital planning.

FISMA Audit Universes and Sample Designs:
FISMA contains multiple areas pertaining to various areas of IT security. We incorporated
statistical sampling in four FISMA areas. Each of those areas was represented by a different
universe. The specific designs are summarized below for each of the four audit areas.

1. Incident Response and Reporting

Universe:
The audit universe consisted of 1,473 incidents reported for FY 2011 as of May 31, 2011. Each
incident had a unique identifier (incident number) and was categorized based on incident type
into 1 of 9 categories. A listing and counts of the different categories are presented in the sample
design section below.

Sample Design:
Each category has specific procedures and timelines that must be met by OCIO and the agency.
While standards differ among the categories, the standards fall into four common groups:
checklist requirements, reporting requirements, timely resolution, and damage containment.
Thus, each incident response can be assessed as “pass” or “fail” when compared to the criteria
that apply specifically to that incident type. This allowed us to combine incident response
performance results (pass or fail) for the mix of incident types.

We selected a stratified design of 66 incidents. We had two incident types with only one
instance each and we wanted to ensure those two incidents were examined. Therefore, Stratum 1
is a census stratum of those two incidents; their outcomes are counted in the results but do not
project to other incident types.

                                                              AUDIT REPORT 50501-0002-12         55
Because we are not making individual category projections, we placed all other incident
categories, containing a total of 1,471 incidents, into Stratum 2. For Stratum 2, the sample size
of 64 incidents was based on an error rate of about 20 percent and a desired absolute precision of
+/-10 percent of the audit universe, when reporting a 95 percent confidence level.

The resulting sample design is summarized in the table below, with two incidents in Stratum 1
and 64 incidents selected with equal probability of selections in Stratum 2; universe counts are
also provided in the table.

Table 1: Incidents universe and sample counts by category

 Stratum                            Incident Type                          Universe   Sample
          1   USCERT CAT2 - Denial of Service (DoS) Count                        1          1
          1   USDA CAT7 - Spam Count                                             1          1
          2   USCERT CAT1 - Unauthorized Access Count                           22          1
          2   USCERT CAT3 - Malicious Code Count                               612        28
          2   USCERT CAT4 - Improper Usage Count                                69          3
          2   USCERT CAT5 - Scans/Probes/Attempted Access Count                 90          5
          2   USCERT CAT6 - Investigation Count                                236        10
          2   USDA CAT8 (USCERT CAT1) - Loss, Theft, Missing Count             271          8
          2   USDA CAT9 - Block List Count                                     171          9
                                                                  Total:      1473        66


Results:
Results are projected to the audit universe of 1,473 incidents. Achieved precision, relative to the
universe of 1,473 incidents, is reflected by the confidence interval for a 95 percent confidence
level. All projections are made using the normal approximation to the binomial as reflected in
standard equations for a stratified sample.98

Projections are shown in Table 2. Narrative interpretation of the results is presented below the
table.




98
     Scheaffer, Mendenhall, Ott, Elementary Survey Sampling, Fourth Edition (Chapter 5), Duxbury Press, c1990.

56         AUDIT REPORT 50501-0002-12
Table 2: Incident Response and Reporting Projections

                                                        95% Confidence
                                                           Interval                                       Actual
                                 Estimate
                                                                           Coefficient                 number of
                                of number    Standard                                     Achieved
         Criterion tested           of         Error
                                                                               of
                                                                                         precision99
                                                                                                       exceptions
                                                                            Variation                   observed
                                exceptions              Lower     Upper
                                                                                                        in sample


 Not all checklists completed         139     52.831        33       244         .380           7%             7
 as required by SOP
 Incidents were not reported          115     48.642        18       212         .423           7%             5
 to US-CERT as required
 Incidents were not resolved          138     52.831        32       243         .383           7%             6
 in a timely manner
 Incidents were not resolved          322     74.929       172       471         .233          10%            14
 to minimize further damage


Based on our sample results:
     ·     We estimate that 139 incidents (about 9.4 percent of the audit universe) had incomplete
           checklists. We are 95 percent confident that between 33 (2.2 percent) and 244
           (16.7 percent) incidents in the audit universe are non-compliant with this criterion.
     ·     We estimate that 115 incidents (about 7.8 percent of the audit universe) were not reported
           to US-CERT as required. We are 95 percent confident that between 18 (1.2 percent) and
           212 (14.4 percent) incidents in the audit universe are non-compliant with this criterion.
     ·     We estimate that 138 incidents (about 9.3 percent of the audit universe) were not resolved
           in a timely manner. We are 95 percent confident that between 32 (2.2 percent) and 243
           (16.5 percent) incidents in the audit universe are non-compliant with this criterion.
     ·     We estimate that 322 incidents (21.9 percent) were not resolved to minimize further
           damage. We are 95 percent confident that between 172 (11.7 percent) and 471
           (32 percent) incidents in the audit universe are non-compliant with this criterion

2. POA&Ms
     Open POA&Ms
Universe:
The universe of open POA&Ms consisted of 2,094 POA&Ms.

Sample Design:
We based our sample size on a 50 percent error rate and desired absolute precision of
+/10 percent, at the 95 percent confidence level. With these assumptions, we calculated a sample
size of 93 POA&Ms for review. We noted that this sample size would also be adequate for a 1



99
  Achieved precision equals one-half the difference between the lower bound and the upper bound of the confidence
interval. For example, (244 – 33) / 2 = 105.5. Expressed as a fraction of the universe, this is 105.5 / 1473 = 7.16
percent.

                                                                      AUDIT REPORT 50501-0002-12                57
percent error rate and a tolerable upper limit of 5 percent at the 95 percent confidence level. We
selected a simple random sample of 93 POA&Ms for review.

Results:
Results for all criteria are projected to the audit universe of 2,094 POA&Ms. Achieved precision
relative to the audit universe is reported for each criterion. The corresponding lower and upper
bounds of the 95 percent confidence interval are also included. All projections are made using
the normal approximation to the binomial as reflected in standard equations for a simple random
sample.100

Projections are shown in Table 3. Narrative interpretation of the results can be found below the
table.

Table 3: Open POA&M Projections

                                                          95% Confidence                                 Actual
                                Estimate                     Interval       Coefficient               number of
                               of number      Standard                                    Achieved
       Criterion tested                                                         of                    exceptions
                                   of           Error                                     Precision
                                                         Lower      Upper    Variation                 observed
                               exceptions
                                                                                                       in sample

 Source of weakness
                                   721        100.672     519        922      0.140         10%          32
 not tracked
 Not appropriately
                                   901        104.901     691       1,110     0.116         10%          40
 prioritized
 Not updated in a
                                   338         77.925     182        494      0.231          7%          15
 timely manner
 Milestone dates not
                                  1,464        97.192    1,269      1,658     0.066          9%          65
 adhered to


Based on our sample results:
       ·    We estimate that for 721 (about 34 percent of the universe) open POA&Ms in our
            universe, the identified source of weakness was not tracked. We are 95% confident that
            between 519 (25 percent) and 922 (44 percent) incidents in the audit universe are non-
            compliant with this criterion.
       ·    We estimate that 901 (about 43 percent of the universe) open POA&Ms in our universe
            were not appropriately prioritized. We are 95% confident that between 691 (33 percent)
            and 1,110 (53 percent) incidents in the audit universe are non-compliant with this
            criterion.
       ·    We estimate that 338 (about 16 percent of the universe) open POA&Ms in our universe
            were not updated in a timely manner. We are 95 percent confident that between 182
            (9 percent) and 494 (24 percent) incidents in the audit universe are non-compliant with
            this criterion.



100
      Op. cit., Scheaffer et al. Chapter 4.

58          AUDIT REPORT 50501-0002-12
       ·      We estimate that for 1,464 (about 70 percent of the universe) open POA&Ms in our
              universe, milestone dates were not adhered to. We are 95 percent confident that between
              1,269 (61 percent) and 1,658 (79 percent) incidents in the audit universe are non-
              compliant with this criterion.

       Closed POA&Ms

Universe:
The universe of closed POA&Ms consisted of 1,023 closed POA&Ms.

Sample Design:
Based on observations from prior year non-statistical samples, we based our sample size on a
“moderate error rate” scenario: a 30 percent error rate and +/10 percent precision at the
95 percent confidence level. With these assumptions, we calculated a sample size of 76 closed
POA&Ms for review. We noted that this sample size would also be reasonable for a 1 percent
error rate and a tolerable upper limit of 5 to 6 percent at the 95 percent confidence level.

We selected a simple random sample of 76 POA&Ms for review and identified a possible stop-
or-go decision once the first 43 POA&Ms were reviewed.

Results:
Results are projected to the universe of 1,023 closed POA&Ms. Achieved precision relative to
the universe is reported for each criterion. The corresponding lower and upper bounds of the
95 percent confidence interval are also included. All projections are made using the normal
approximation to the binomial as reflected in standard equations for a simple random sample.101

Projections are shown in Table 4. Narrative interpretation of the results can be found below the
table.

Table 4: Closed POA&M Projections

                                                    95% Confidence                                  Actual
                           Estimate                    Interval                                  number of
                          of number                                    Coefficient               exceptions
                              of       Standard                            of        Achieved     observed
      Criterion tested    exceptions     Error    Lower       Upper     Variation    Precision    in sample
 Closed POA&Ms
 did not have
 remediation actions
 to sufficiently             190        60.122      69         312        .316         12%           8
 address the
 identified
 weaknesses




101
      Ibid.


                                                                 AUDIT REPORT 50501-0002-12           59
Based on our sample results, we estimate that for 190 (about 19 percent of the universe) closed
POA&Ms in the universe, remediation actions did not sufficiently address weaknesses. We are
95 percent confident that between 69 (7 percent) and 312 (30 percent) incidents in the universe
are non-compliant with this criterion.

3. System / Contingency Planning

Universe:
Our universe consisted of all FISMA reportable systems for the three agencies reviewed as of
August 2, 2011. Each system is to have a contingency plan that contains very specific recovery
information for the agency in the event of a disaster.

Sample Design:
We selected a simple random sample of 25 contingency plans for review. For a 95 percent
confidence level, this sample size was adequate for a range of potential outcomes: from a
0 percent exception rate with a 5 percent upper limit to a 30 percent error rate with +/-10 percent
precision. Our simple random sample included at least one contingency plan from each agency,
so we did not use stratification.

Results:
The audit team reviewed the first 17 system contingency plans selected in the sample. Results
are projected to the audit universe of 37 systems. Achieved precision relative to the universe is
reported for each criterion. The corresponding lower and upper bounds of the 95 percent
confidence interval are also included. The achieved confidence intervals were wider than
targeted in the design because the review was terminated once the first 17 system contingency
plans were reviewed. For two criteria, the lower bound was lower than the number of exceptions
observed in the sample. All projections are made using the normal approximation to the
binomial as reflected in standard equations for a simple random sample.102

Projections are shown in Table 5. Narrative interpretation of the results can be found below the
table.




102
      Ibid.

60            AUDIT REPORT 50501-0002-12
Table 5: System / Contingency Planning Projections

                              Estimate                   95%                                   Actual number
                                                      Confidence     Coefficient
                             of number    Standard                                 Achieved    of exceptions
        Criterion tested         of         Error      Interval          of
                                                                                   Precision    observed in
                                                                      Variation
                             exceptions                                                            sample
                                                     Lower   Upper
 The system contingency
 plans are missing or           22         3.347      15      29        .154         19%            10
 incomplete.
 The system backups are
 not performed in a timely       7         2.593       1      12        .397         15%            3
 manner.

 The system backups are
                                11         3.099       4      17        .285         18%            5
 not appropriately tested.



Based on our sample results:
    ·     We estimate that 22 (about 59 percent of the universe) systems in our universe had
          missing or incomplete contingency plans. We are 95 percent confident that between 15
          (40 percent) and 29 systems (78 percent) are non-compliant with this criterion.
    ·     We estimate that for 7 (about 18 percent of the universe) systems in our universe,
          backups were not performed in a timely manner. We are 95 percent confident that up to
          12 (33 percent) systems are non-compliant with this criterion.
    ·     We estimate that for 11 systems (about 29 percent of the universe) in our universe,
          backups were not appropriately tested. We are 95 percent confident that up to 17
          (47 percent) systems are non-compliant with this criterion.

4. Authority to Operate (ATO) Recertification

Universe:
Our universe consisted of 55 FISMA reportable systems requiring ATO recertification in FY11.
These were systems which had not been retired and for which the certification expired in FY11.
Attributes to be tested pertained to System Security Plans, Risk Assessments, and Security
Assessment Reports.

Sample Design:
We selected a simple random sample of 25 systems for review, which would satisfy various
possible combinations of error rates, confidence level, and precision. We also provided for a
stop-or-go decision, in which a “stop” decision for a particular criterion could be based on the
first 10 to 15 plans selected, if the review was resulting in all selections having an exception.
Results:
Because the review was producing an extremely high error rate, we made projections after 12
reportable systems were reviewed for the first criterion and after the first 10 reportable systems
were reviewed for the remaining two criteria. For the latter two criteria, the smaller sample


                                                               AUDIT REPORT 50501-0002-12           61
resulted in a slight loss of precision overall, but the lower limit on the projection is still very
high. All results below are projected to the universe of 55 reportable system certifications.

Table 6: ATO Recertification Projections
                                             Estimate     Lower Error Limit     Actual number of
                                  Sample    of number        at 95% CL             exceptions
         Criterion Tested
                                   Size         of                                observed in
                                            exceptions    [number / fraction]        sample
 Were System Security Plans
 (SSP) adequate?                    12          55            44 / 80.3%              12
 Did Systems SARs reviewed
 meet the minimum security
 requirements required by NIST?     10          55            42 / 76.4%              10
 Were risk assessments
 conducted in accordance with
 government policies?               10          55            42 / 76.4%              10



Based on our sample results:
     ·   We estimate that all 55 SSPs are inadequate. We are 95 percent confident that at least
         80.3 percent of the SSPs in the universe are inadequate.
     ·   We estimate that all 55 SARs fail to meet the minimum NIST security requirements. We
         are 95 percent confident that at least 76.3 percent of systems in our universe failed to
         meet the minimum NIST requirements.
     ·   We estimate that none of the 55 risk assessments were conducted in accordance with
         government policies. We are 95 percent confident that at least 76.3 percent of the risk
         assessments in our universe were not conducted in accordance with government policies.




62       AUDIT REPORT 50501-0002-12
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday–Friday, 9:00 a.m.– 3 p.m. ET)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual’s income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
